<html>
<title> - [H.A.S.C. No. 111-111]AFGHANISTAN: THE RESULTS OF THE STRATEGIC REVIEW, PART I</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 111-111]

                      AFGHANISTAN: THE RESULTS OF

                      THE STRATEGIC REVIEW, PART I

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            DECEMBER 3, 2009



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                  U.S. GOVERNMENT PRINTING OFFICE
56-006                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          HOWARD P. ``BUCK'' McKEON, 
SOLOMON P. ORTIZ, Texas                  California
GENE TAYLOR, Mississippi             ROSCOE G. BARTLETT, Maryland
NEIL ABERCROMBIE, Hawaii             MAC THORNBERRY, Texas
SILVESTRE REYES, Texas               WALTER B. JONES, North Carolina
VIC SNYDER, Arkansas                 W. TODD AKIN, Missouri
ADAM SMITH, Washington               J. RANDY FORBES, Virginia
LORETTA SANCHEZ, California          JEFF MILLER, Florida
MIKE McINTYRE, North Carolina        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts          TODD RUSSELL PLATTS, Pennsylvania
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
WILLIAM L. OWENS, New York
DAN BOREN, Oklahoma
                    Erin C. Conaton, Staff Director
                 Mike Casey, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                    Caterina Dutto, Staff Assistant





















                            C O N T E N T S


                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, December 3, 2009, Afghanistan: The Results of the 
  Strategic Review, Part I.......................................     1

Appendix:

Thursday, December 3, 2009.......................................    47
                              ----------                              

                       THURSDAY, DECEMBER 3, 2009
        AFGHANISTAN: THE RESULTS OF THE STRATEGIC REVIEW, PART I
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Ranking Member, Committee on Armed Services........     3
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Gates, Hon. Robert M., Secretary of Defense......................     4
Lew, Hon. Jacob J., Deputy Secretary of State for Management and 
  Resources, U.S. Department of State............................     9
Mullen, Adm. Michael G., USN, Chairman, Joint Chiefs of Staff....     7

                                APPENDIX

Prepared Statements:

    Gates, Hon. Robert M.........................................    51
    Lew, Hon. Jacob J............................................    60
    Mullen, Adm. Michael G.......................................    55

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Bright...................................................    89
    Mr. Coffman..................................................    77
    Mr. Conaway..................................................    75
    Ms. Giffords.................................................    82
    Mr. Heinrich.................................................    88
    Mr. Jones....................................................    71
    Mr. Loebsack.................................................    78
    Mrs. McMorris Rodgers........................................    73
    Mr. Nye......................................................    86
    Mr. Shuster..................................................    72
    Mr. Smith....................................................    72
    Ms. Tsongas..................................................    84
    Mr. Wittman..................................................    75
 
       AFGHANISTAN: THE RESULTS OF THE STRATEGIC REVIEW, PART I

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                        Washington, DC, Thursday, December 3, 2009.
    The committee met, pursuant to call, at 1:05 p.m., in room 
210, Capitol Visitor Center, Hon. Ike Skelton (chairman of the 
committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Our hearing will come to order.
    I might state first that we have some votes that may come 
up very quickly. I hope we can get them over with and back here 
just as soon as possible, and I ask our witnesses to bear with 
us. We have no control over those.
    I would also urge our members to strictly follow the gavel 
on the five-minute rule so as many people can ask questions as 
possible.
    Today, the House Armed Services Committee meets to receive 
testimony on ``Afghanistan: Results of the Strategic Review.'' 
Our witnesses are the Honorable Robert Gates, Secretary of 
Defense; Admiral Mike Mullen, Chairman of the Joint Chiefs of 
Staff; and the Honorable Jacob Lew, Deputy Secretary of State 
for Management and Resources.
    We welcome each of you, and thank you for being with us 
today.
    Let me begin by commending the President for his decision 
to commit an additional 30,000 U.S. troops to carry out a 
strategy for success in Afghanistan. In a lengthy letter and in 
private conversations, I urged the President to listen to our 
military leaders, and he did. I am pleased that the President 
agreed to provide General McChrystal with the time and 
resources needed to get Afghanistan right.
    Al Qaeda was and continues to present a serious threat to 
the United States. Their most egregious attack was September 
11th, but it was hardly the only one. While the threat posed by 
al Qaeda has been lessened by our actions in Afghanistan and 
Pakistan, it has hardly dissipated. In the long term, I do not 
believe that we can disrupt and defeat al Qaeda if we cannot 
deny them the use of Afghanistan as a safe haven.
    Unfortunately, shortly after deposing the Taliban regime 
and forcing al Qaeda out of Afghanistan in this war we were 
forced to wage, the previous administration took our eye off 
the ball, choosing to invade Iraq. Due to the preoccupation 
with Iraq, the war in Afghanistan was under-resourced, with 
essentially no strategy for seven years. Unsurprisingly, the 
threat came back.
    President Obama's decision to deploy another 30,000 troops 
in addition to the troops he ordered to Afghanistan earlier 
this year demonstrates that he understands the seriousness of 
the threat and the importance of the mission.
    In January 2009, there were about 33,000 U.S. troops in 
Afghanistan. In about seven months, there will be three times 
that. Media reports have focused a lot on these numbers, but 
more important than numbers is strategy. As General McChrystal 
pointed out, without a change in strategy, all the troops in 
the world won't matter.
    President Obama conducted a rigorous review of the 
situation in Afghanistan, and it resulted in a realistic 
strategy designed to seize the initiative from the insurgency, 
build the Afghan capacity, and ultimately to allow the Afghan 
government and security forces to take the lead in fighting 
this war.
    The President has appropriately called for additional 
troops from our allies. This is not just America's war, and we 
must not allow it to become that. Perhaps more importantly, the 
President has put the burden of reform squarely on the Afghan 
government, laying out clear expectations of performance and 
promising support for those ministries and local leaders that 
perform.
    The President has also rightly acknowledged the importance 
of Pakistan. That country remains a challenge, playing a key 
and often contradictory role in the region. Pakistan, by 
assisting in the pursuit of the al Qaeda and Afghan Taliban 
leaders, could help bring the war in Afghanistan to an end. 
Conversely, if Pakistan were to return to its old habits of 
supporting the Afghan Taliban, the war may be almost impossible 
to win. More concerning, the continued ascendency of militant 
movements in the region could destabilize Pakistan, a country 
with nuclear weapons. This could be a disaster for all of us.
    I believe that we have a good strategy, but we must be 
mindful that implementing this counterinsurgency strategy will 
be extremely complex and far from easy. Just the task of 
deploying an additional 30,000 troops will be difficult. Supply 
lines to Afghanistan are long and difficult. Bases are austere, 
and there is a shortage of every sort of infrastructure. And 
the job our troops will have to do once they get there will be 
even harder.
    Every member of this committee will have questions about 
the strategy and how it can be accomplished. For my part, I 
have numerous questions: What do we believe must be 
accomplished in the next 18 months? How will we move this 
substantial number of troops so quickly? How will we mitigate 
strains on the force? How will we convince the Pakistanis that 
their interests lie with us? How will we measure progress over 
time? And how will we help the Afghan people build the sort of 
legitimate government that can end the insurgency?
    But while I do have questions about implementation, I do 
not have any doubt that we must succeed in Afghanistan, that 
the President is right to order the deployment of an additional 
30,000 troops on top of the troops he has already approved, and 
that the new strategy provides a good path for success.
    I hope our witnesses today can help us fill in the details 
of how the difficult but realistic goals of the strategy can be 
accomplished. At the end of the day, I believe we are all 
working for the same thing: the safety of the American people 
and the end of the threat from al Qaeda.
    Now I turn to my good friend, the gentleman from 
California, Buck McKeon, the ranking member, for comments he 
might care to make.

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
  FROM CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman.
    Mr. Chairman, after months of waiting for a decision on 
Afghanistan, I am hopeful we have finally turned the corner and 
have a strategy in place to succeed in Afghanistan.
    On Tuesday night, the President agreed to provide General 
McChrystal most of the forces he needs to execute a 
counterinsurgency strategy. This is a positive step, 
particularly the President's commitment to deploy these forces 
as fast as possible. This will assist General McChrystal to 
take the fight directly to the Taliban in southern and eastern 
Afghanistan, while helping train and mentor the Afghan national 
security forces at the same time.
    Yet, the President's speech left me unconvinced that his 
plan goes far enough to ensure victory. I worry that our 
enemies will see the President's announced date for withdrawal 
as more of a commitment to leave Afghanistan than a declaration 
that al Qaeda will be defeated and the Taliban routed. 
Certainly this is what our allies in the region believe. 
Today's headline in The New York Times reads, ``Afghans and 
Pakistanis Concerned Over U.S. Plan.''
    All Americans want to see our troops leave Afghanistan as 
soon as possible, but only after successfully completing their 
mission. In our view, any redeployment should be based on the 
events and conditions on the ground, not the Washington 
political clock. Setting a date certain to begin withdrawing 
U.S. forces, I believe, risks undermining the very mission the 
President endorsed on Tuesday night. This deadline seems to fly 
in the face of basic counterinsurgency doctrine. I think 
Senator McCain said it best yesterday: ``Success is the real 
exit strategy.''
    Admiral Mullen, when you testified before the Congress in 
September, you said, ``The Afghan people are waiting on the 
sidelines for how committed we are.'' I fear that the President 
may have deepened the doubts of the Afghan people.
    My other concerns reside more in what the President did not 
say on Tuesday night, so I would like our witnesses to address 
the following questions over the course of this hearing: First, 
are 30,000 additional forces enough to win decisively? As 
General McChrystal stated in his assessment, resources will not 
win this war, but under-resourcing could lose it. Given the 
many leaks that General McChrystal requested, at a minimum, 
40,000 additional forces, I would like our witnesses to explain 
why the President is not under-resourcing his own strategy.
    The President should be commended for expediting the 
deployment of these forces. Is it our position that it is 
better to get 30,000 troops to Afghanistan as soon as possible 
than to get 40,000 spread out over the next 15 months? When do 
you expect these forces to arrive in theater?
    While we have heard top line numbers, we have not heard 
discussion of the composition of these forces. How many combat 
brigades will deploy? How many will be trainers? Will each 
combat brigade receive all its enablers?
    As we learned in Iraq, effective counterinsurgency requires 
effective host-nation partners. With all the talk of an exit 
date, the only credible narrative for redeployment is the 
effective buildup of Afghan National Security Forces. According 
to General McChrystal, a fundamental pillar for achieving 
success is developing a significantly more effective and larger 
Afghanistan National Security Forces (ANSF), with radically 
expanded coalition-force partnering at every echelon.
    Both the President's speech and your testimony today do not 
address the requisite size of the ANSF. Do you believe we need 
to double the size of the Afghan National Security Forces in 
order to transition security responsibility to the Afghan 
government? General Caldwell and others have the number at 
400,000. Do we need to have this force in place before we begin 
transitioning?
    Finally, I think one of the costs of the three-month 
deliberation was the absence of a strong voice promoting our 
mission and our strategy. While the executive huddled, public 
opinion and support lagged. This needs to be corrected. I hope 
the President will travel to communities throughout the United 
States to rally the American people and Congress behind his 
strategy, much as he has done on health care and other issues.
    I thank you for being here today. I know that you have had 
a busy last couple of days, and I appreciate your patience and 
appreciate your being here. And I look forward to a candid 
discussion on these important issues. Thank you again.
    I yield back.
    The Chairman. I thank the gentleman.
    Again, I urge everyone to heed the five-minute gavel. We 
will, as you know, break for votes and get back just the minute 
we can.
    As I understand it, our witnesses have a drop-dead time at 
4:30, and we will do our very best to abide by your schedule.
    With that, we call on Secretary Gates. Welcome.

    STATEMENT OF HON. ROBERT M. GATES, SECRETARY OF DEFENSE

    Secretary Gates. Thank you, Mr. Chairman.
    Mr. Chairman, Mr. McKeon, members of the committee, thank 
you for inviting us to testify today.
    By now, you are aware of the details of the President's 
announcement of our renewed commitment and more focused 
strategy for Afghanistan and Pakistan. I would like to provide 
an overview of the strategic thinking and context behind his 
decisions, in particular the nexus among al Qaeda, the Taliban, 
Pakistan, and Afghanistan, and our objectives and how the 
President's strategy aims to accomplish them.
    As the President first stated in March and reemphasized 
Tuesday night, the goal of the United States in Afghanistan and 
Pakistan is to disrupt, dismantle, and defeat al Qaeda and its 
extremist allies and prevent its return to both countries. The 
international military effort to stabilize Afghanistan is 
necessary to achieve this overarching goal.
    Defeating al Qaeda and enhancing Afghan security are 
mutually reinforcing missions. They cannot be untethered from 
one another, as much as we might wish that to be the case. 
While al Qaeda is under great pressure now and dependent on the 
Taliban and other extremist groups for sustainment, the success 
of the Taliban would vastly strengthen al Qaeda's message to 
the Muslim world that violent extremists are on the winning 
side of history.
    Put simply, the Taliban and al Qaeda have become symbiotic, 
each benefiting from the success and mythology of the other. Al 
Qaeda leaders, in particular, have stated this explicitly and 
repeatedly. The lesson of the Afghan Taliban's revival for al 
Qaeda is that time and will are on their side. With a Western 
defeat, al Qaeda could regain its strength and achieve a major 
strategic victory as long as its senior leadership lives and 
can continue to inspire and attract followers and funding. 
Rolling back the Taliban is now necessary, even if not 
sufficient, to the ultimate defeat of al Qaeda.
    At the same time, one cannot separate the security 
situation in Afghanistan from the stability of Pakistan, a 
nuclear-armed nation of 175 million people, now also explicitly 
targeted by Islamic extremists. Giving extremists breathing 
room in Pakistan led to the resurgence of the Taliban and more 
coordinated, sophisticated attacks in Afghanistan. Providing a 
sanctuary for extremists in southern and eastern Afghanistan 
would put yet more pressure on a Pakistani Government already 
under attack from groups operating from the border region.
    Indeed, the Pakistan Taliban, in just the last year or so, 
has become a real threat to Pakistan's own domestic peace and 
stability, carrying out, with al Qaeda's help, escalating 
bombing attacks throughout the country. Failure in Afghanistan 
would mean a Taliban takeover of much, if not most, of the 
country and likely a renewed civil war. Taliban-ruled areas 
could in short order become once again a sanctuary for al 
Qaeda, as well as a staging area for resurgent military groups 
on the offensive in Pakistan.
    Success in South and Central Asia by Islamic extremists, as 
was the case 20 years ago, would beget success on other fronts. 
It would strengthen the al Qaeda narrative, providing renewed 
opportunities for recruitment, fundraising, and more 
sophisticated operations.
    It is true that al Qaeda and its followers can plot and 
execute attacks from a variety of locations, from Munich to 
London to Denver. What makes the border area between Pakistan 
and Afghanistan uniquely different from any other location, 
including Somalia, Yemen, and other possible redoubts, is that 
this part of the world represents the epicenter of extremist 
jihadism, the historic place where native and foreign Muslims 
defeated one superpower and, in their view, caused its collapse 
at home. For them to be seen to defeat the sole remaining 
superpower in the same place would have severe consequences for 
the United States and the world.
    Some say this is similar to the domino theory that 
underpinned and ultimately muddied the thinking behind the U.S. 
military escalation in Vietnam. The difference, however, is 
that we have very real and very recent history that shows just 
what can and will happen in this part of the world when 
extremists have breathing space, safe havens, and governments 
complicit with and supportive of their mission. Less than five 
years after the last Soviet tank crossed the Termez Bridge out 
of Afghanistan, in 1993 Islamic militants launched their first 
attack on the World Trade Center in New York. We cannot afford 
to make a similar mistake again.
    The President's new strategic concept aims to reverse the 
Taliban's momentum and reduce its strength, while providing the 
time and space necessary for the Afghans to develop enough 
security and governance to stabilize their own country.
    The essence of our civil military plan is to clear, hold, 
build, and transfer. Beginning to transfer security 
responsibility to the Afghans in the summer of 2011 is critical 
and, in my view, achievable. July 2011, the time at which the 
President said the United States will begin to draw down our 
forces, will be the beginning of a process, an inflection 
point, if you will, of transition, where Afghan forces assume 
greater responsibility for security.
    The pace and character of that drawdown, which districts 
and provinces are turned over and when, will be determined by 
conditions on the ground. It will be a gradual, if inexorable, 
process. It will be similar to the gradual but steady 
conditions-based drawdown that began to take place in Iraq 
about 14 months after the surge there began.
    As with so many issues in the national security and defense 
arena, the real challenge in Afghanistan is finding the right 
balance. The prompt dispatch of some 30,000 U.S. combat troops 
on top of the 21,000 already ordered by President Obama earlier 
this year sends a sure message of the President's resolve to 
both our partners and adversaries in Afghanistan and Pakistan. 
When this buildup is complete, total U.S. force levels in 
Afghanistan will have more than doubled under President Obama's 
orders, to 100,000 troops. Whether you agree with what we are 
doing or not, there should be no doubt at home or abroad about 
this President's commitment to the success of this mission.
    On the other hand, we need to send an equally strong 
message to the Afghan Government that, when all is said and 
done, the U.S. military is not going to be there to protect 
them forever, that the Afghans must step up to the plate and do 
the things necessary that will allow them to take primary 
responsibility for defending their own country, and do so with 
a sense of purpose and urgency. This is the balance we are 
trying to achieve, and I believe the President's plan provides 
both the resources and flexibility to do so.
    Making this transition possible requires accelerating the 
development of a significantly larger and more capable Afghan 
army and police through an intensive partnering with 
International Security Assistance Forces (ISAF), especially in 
combat. Even after we transfer security responsibility to the 
Afghans and draw down our combat forces, the U.S. will continue 
to support their development as an important partner for the 
long haul. We must not repeat the mistakes of 1989, when we 
abandoned the country, only to see it descend into chaos and 
then into Taliban hands.
    Let me offer a couple of closing thoughts. The President 
believes, as do I, that in the end we cannot defeat al Qaeda 
and its toxic ideology without improving and stabilizing the 
security situation in Afghanistan. The President's decision 
offers the best possibility to decisively change the momentum 
in Afghanistan and fundamentally alter the strategic equation 
in Pakistan and central Asia, all necessary to protect the 
United States, our allies, and our vital interests.
    As always, the heaviest burden will fall on the men and 
women who have volunteered and re-volunteered to serve their 
country in uniform. I know they will be uppermost in our minds 
and prayers as we take on this arduous but vitally necessary 
mission.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Gates can be found in 
the Appendix on page 51.]
    The Chairman. Mr. Secretary, we thank you.
    Admiral Mullen.

   STATEMENT OF ADM. MICHAEL G. MULLEN, USN, CHAIRMAN, JOINT 
                        CHIEFS OF STAFF

    Admiral Mullen. Mr. Chairman, Congressman McKeon, 
distinguished members of this committee, thank you for your 
time today.
    In September of 2008, I testified here and said in 
Afghanistan we are doing what we can. I believe in November of 
2009 in Afghanistan we need to do what we must.
    I support fully and without hesitation the President's 
decision, and I appreciate the opportunity to contribute to 
what I believe was a healthy and productive discussion. I have 
seen my share of internal debates on national security issues 
over the course of these last two years, and I can honestly say 
that I do not recall an issue so thoroughly or so thoughtfully 
considered as this one. Every military leader in the chain of 
command, as well as those of the Joint Chiefs, was given voice 
throughout this process, and every one of us used it.
    We now have before us a strategy more appropriately matched 
to the situation on the ground in Afghanistan and resources 
matched more appropriately to that strategy, particularly with 
regard to reversing the insurgency's momentum in 2010. And 
given the stakes in Afghanistan for our own national security, 
as well as that of our partners around the world, I believe the 
time we took was well worth it.
    Secretary Gates has discussed many of the larger policy 
issues in question, and I will not repeat them. But from a 
purely military perspective, I believe our new approach does 
three critical things.
    First, by providing more discrete objectives, it offers 
better guidance to commanders on the ground about how to employ 
their forces. They will still work to disrupt, dismantle, and 
defeat al Qaeda and prevent Afghanistan from becoming a safe 
haven. They will still strive to protect the Afghan people, who 
remain the center of gravity. They will still pursue major 
elements of the counterinsurgency desired and designed by 
General McChrystal, which, as we all know, involves at least 
some measure of active counterterrorism operations.
    But now they will tailor this campaign and those operations 
by focusing on key population areas, by increasing pressure on 
all of al Qaeda's leadership, by more effectively working to 
degrade the Taliban's influence, and by streamlining and 
accelerating the growth of competent Afghan National Security 
Forces.
    At its core, our strategy is about providing breathing 
space for the Afghans to secure their own people and to 
stabilize their own country. It is about partnering and 
mentoring just as much, if not more so, than it is about 
fighting. Where once we believed that finishing the job meant 
to a large degree doing it ourselves, we now know it cannot 
truly or permanently be done by anyone other than the Afghans 
themselves. Fully a third of the U.S. troops in theater today 
are partnered with Afghan forces, and I expect that number to 
rise significantly through 2010.
    Secondly, but not insignificantly, this new strategy gives 
the commanders on the ground the resources and the support they 
need to reverse the momentum of the Taliban insurgency and to 
accomplish these more limited objectives. I have said it before 
and I believe it still today: This region is the epicenter of 
global Islamic extremism. It is the place from which we were 
attacked on 9/11, and, should we be hit again, it is the place 
from which I am convinced the planning, training, funding, and 
leadership will emanate.
    Al Qaeda may, in fact, be the architect of such an attack, 
but the Taliban will be the bricklayers. Though hardly a 
uniform body, Taliban groups have grown bolder and more 
sophisticated. We saw that just a few months ago in the 
Korengal Valley, where Taliban forces attacked coalition 
outposts using what I would call almost conventional, small-
unit tactics. Their fighters are better organized and better 
equipped than they were just one year ago. And that trend, 
which started in 2006, has continued through today.
    In fact, coalition forces experienced record-high violence 
this past summer, with insurgent attacks more than 60 percent 
above 2008 levels. And through brutal intimidation, the Taliban 
has established shadow governments across the country, coercing 
the reluctant support of many locals and challenging the 
authority of elected leaders and state institutions. Indeed, we 
believe the insurgency has achieved a dominant influence in 11 
of the 34 provinces.
    To say there is no serious threat of Afghanistan falling 
once again into the Taliban's hands ignores the audacity of 
even the insurgency's most public statements. And to argue 
that, should they have that power, the Taliban would not at 
least tolerate the presence of al Qaeda on Afghan soil is to 
ignore both the recent past and the evidence we see every day 
of collusion between these factions on both sides of the 
Afghanistan-Pakistan border.
    The cost of failure is, then, very grave. That is why the 
President's decision for an extended surge to Afghanistan of 
30,000 additional forces is so important. It gets the most U.S. 
force into the fight as quickly as possible, giving General 
McChrystal everything he needs in 2010 to gain the initiative. 
In fact, it is everything he asked for.
    It validates our adherence to a counterinsurgency approach, 
and it offers our troops in Afghanistan the best possible 
chance to set security conditions for the Afghan people to see 
our commitment to their future; for the Karzai government to 
know our strong desire to see his promised reforms; for the 
Afghan Taliban to understand they will not, they cannot take 
back Afghanistan; and for those beyond Afghanistan who support 
the Taliban or would see the return of al Qaeda to realize the 
futility of their support.
    I should add that these reinforcements come on top of the 
21,000 troops the President ordered shortly after taking 
office, troops which have already made a huge difference in the 
southern Helmand Valley and in the training and partnering with 
Afghan security forces.
    But, as I have testified before, Mr. Chairman, no amount of 
troops and no amount of time will ever be enough to completely 
achieve success in such a fight. They simply must be 
accompanied by good governance and healthy public 
administration. This, not troop numbers, is the area of my 
greatest concern. Like everyone else, I look forward to working 
with the Karzai government, but we must have the support of the 
interagency and international communities as well.
    That brings me to my final point. The President's new 
strategy still recognizes the criticality of a broad-based 
approach to regional problems. He does not view Afghanistan in 
isolation any more than he views the ties between al Qaeda and 
the Taliban as superficial. He has called for stronger and more 
productive cooperation with neighboring Pakistan, which is 
likewise under the threat from radical elements and whose 
support remains vital to our ability to eliminate safe havens.
    He has pledged, and we in the military welcome, renewed 
emphasis on securing more civilian expertise to the effort, 
more contributions by other North Atlantic Treaty Organization 
(NATO) nations, and a realistic plan to transition 
responsibilities to the Afghans. His is a more balanced, more 
flexible, and more achievable strategy than what we have had in 
the past, one based on pragmatism and real possibilities.
    Speaking for 2.2 million men and women who must execute it 
and who, with their families, have borne the brunt of the 
stress and the strain of eight years of constant combat, I 
support his decision and appreciate his leadership.
    Thank you, Mr. Chairman.
    [The prepared statement of Admiral Mullen can be found in 
the Appendix on page 55.]
    The Chairman. Admiral, we thank you.
    I think, Secretary Lew, we can get your testimony in before 
we must break. A vote has been called, but I think we are in 
pretty good shape to make it.
    Secretary Lew, please.

 STATEMENT OF HON. JACOB J. LEW, DEPUTY SECRETARY OF STATE FOR 
       MANAGEMENT AND RESOURCES, U.S. DEPARTMENT OF STATE

    Secretary Lew. Chairman Skelton, Congressman McKeon, 
distinguished members of the committee, I appreciate the 
opportunity to testify here today.
    And I would begin by sharing Secretary Clinton's regrets 
that she was not able to be here at this hearing. As I think 
you know, she is traveling right now to Brussels to join the 
NATO ministerial, which provides an important opportunity to 
further consult with some of our closest allies on a number of 
important topics, including allied support for the Afghanistan 
policy that we are here to discuss today.
    Tuesday evening, President Obama presented the 
Administration's strategy for Afghanistan and Pakistan. 
Secretary Clinton, Secretary Gates and Admiral Mullen have 
further testified on the details and national security 
importance of our revised strategy. I will try to limit my 
remarks today to providing additional details on the civilian 
components of our revised strategy and to augment those 
presentations.
    As the President made clear, the duration of our military 
presence will be limited, but our civilian commitment must 
continue even as our troops begin to come home. Accomplishing 
our mission and ensuring the safety of the American people will 
not be easy. It will mean sending more civilians, troops, and 
assistance to Afghanistan and significantly expanding our 
civilian efforts in Pakistan.
    In the past eight months, I have made two visits to the 
region, which provided me increased firsthand understanding of 
the challenges we face and a deep appreciation for our men and 
women who are carrying out our nation's policy. These brave men 
and women, civilians as well as military, are making 
extraordinary sacrifices on behalf of our security. I want to 
assure the committee that we will do everything we can to make 
sure that their efforts make our nation safer.
    The situation in Afghanistan and Pakistan is serious, but 
there is reason to be hopeful. In his inauguration speech last 
month, President Karzai pledged to combat corruption, improve 
governance, and deliver for the people of his country. In his 
words, ``Words now must be meshed with action.'' The Afghan 
people, the United States, and the international community will 
hold the Afghan government accountable for making good on these 
commitments.
    The State Department, United States Agency for 
International Development (USAID), and other civilian agencies 
will help by working with our Afghan partners to strengthen 
institutions at every level so they are ready to take 
responsibility when our combat troops begin to depart. The 
President has outlined a time frame for transition to Afghan 
responsibility. As the President said, we will execute the 
transition responsibly, taking into account conditions on the 
ground.
    This time frame for transition provides a sense of urgency. 
It should be clear to everyone, unlike in the past, the United 
States will have an enduring commitment to Afghanistan, 
Pakistan, and the region. Our resolve is reflected in the 
substantial commitment of troops and civilian resources that 
the President has made since taking office and will continue 
long after our combat troops have departed.
    Our civilian effort is already bearing fruit. Civilian 
experts are helping build capacity in government ministries, 
providing development assistance in the field, and working in 
scores of other roles. When our Marines went into Nawa this 
July, we had civilians on the ground with them the next day.
    When I traveled to Helmand in September, I heard firsthand 
from local officials and U.S. and allied military personnel how 
our civilian-military coordination is growing stronger and 
stronger. We are on track to triple the number of civilians in 
Afghanistan to 974 by early next year. On average, each 
civilian leverages 10 partners, ranging from locally employed 
staff to experts with U.S.-funded non-governmental 
organizations.
    As Secretary Clinton said yesterday, it is a cliche to say 
we have our best people in these jobs, but it also happens to 
be true. When the Secretary was in Kabul a few weeks ago, she 
heard from an American colonel that, while he had thousands of 
outstanding soldiers under his command, none had 40 years of 
agricultural experience or rule-of-law or government expertise 
like the United States Department of Agriculture (USDA) and 
State Department civilian experts serving alongside his 
battalion. He told her that he was happy to supply whatever 
support these valuable civilians need, and he said we need more 
of them. The President's strategy, with congressional support, 
will make that possible.
    Not only do we increasingly have the right people to 
achieve our objectives, we also have a sound strategy. We are 
delivering the high-impact economic assistance and bolstering 
Afghanistan's agricultural sector, the traditional core of the 
Afghan economy. This will create jobs, reduce funding that the 
Taliban receives from poppy cultivation, and draw insurgents 
off of the battlefield.
    We will support an Afghan-led effort to open the door to 
Taliban who abandon violence and want to reintegrate into 
society. We understand that some who fight with the insurgency 
do not do so out of conviction but due to coercion or the need 
for the money that they are provided. All Afghans should have 
the choice to pursue a better future if they do so peacefully, 
respect for basic human rights of their fellow citizens, and 
renounce al Qaeda.
    Our regional diplomacy compliments this political approach 
by seeking to mitigate external interference in Afghanistan and 
working to shift the calculus of neighboring countries from 
competition for influence to cooperation and economic 
integration.
    We also believe that a strong and stable democratic 
Pakistan must be a key partner for the United States. People in 
Pakistan are increasingly coming to the view that we share a 
common enemy. I heard this repeatedly during my visits there.
    We will significantly expand support to help develop the 
potential of Pakistan and its people, to bring our people 
closer together. Our assistance will demonstrate our commitment 
to addressing problems that affect everyday lives of 
Pakistanis, but it will also bolster Pakistan against the 
threat of extremism. A village where girls can get an education 
will be more resistant to extremism. A young man with a bright 
future in a growing economy is unlikely to waste his potential 
in a suicide bombing.
    We share this responsibility with governments around the 
world. Our NATO allies and other international community 
partners have already made significant contributions of their 
own in Afghanistan and Pakistan. The Secretary and Ambassador 
Holbrooke are working now in Brussels to secure additional 
commitments.
    The task we face is as complex as any national security 
challenge of our lifetime. We will not succeed if this effort 
is viewed as the responsibility of a single party, a single 
agency, or a single country. We owe it to the troops and 
civilians who face these dangers to come together as Americans, 
and together with our allies and partners, to help them 
accomplish the mission.
    I thank you for the opportunity to testify today.
    [The prepared statement of Secretary Lew can be found in 
the Appendix on page 60.]
    The Chairman. Mr. Secretary, we thank you.
    We will break for the votes. There could very well be 
another motion to recommit, so it will be a short while. We 
will recess.
    [Recess.]
    The Chairman. The hearing will come to order.
    I will begin by asking a question or two, and hopefully we 
can proceed with everyone staying well within the five-minute 
rule.
    Afghanistan, Mr. Secretary and Admiral Mullen, is 
undoubtedly the epicenter for terrorism in the world. So I ask 
you, are you fully comfortable with the President's strategy, 
including the target date to begin redeploying troops out of 
Afghanistan?
    I ask each of you.
    Secretary Gates. First of all, Mr. Chairman, I am very 
comfortable with the President's strategy.
    I believe that each of these conflicts that we are engaged 
in needs to be assessed individually. There are some parallels, 
and there are some areas where they are different.
    I have been adamantly opposed and continue to be opposed to 
deadlines, but I regard the July 2011 date as the beginning of 
a process. And it has required balancing between signaling our 
commitment, which certainly should be signaled by this 
President's approval of some 52,000 more troops this year, and 
lighting a fire under the Afghans to give them a sense of 
urgency that they have to be prepared and preparing to take 
over responsibility for the security of their country.
    My hope is that, as that process goes forward and we draw 
down our troops, they can sustain the level of security that 
then allows us to continue a more purely counterterrorist 
mission until al Qaeda is defeated, as the President has said.
    So it is a balance, but I think it is a good balance. I 
think it is important to see July 2011 as an inflection point, 
as the beginning of this process. And, for that reason, I am 
comfortable with it.
    I would just add one other thing. When people say that it 
may embolden the Taliban, it is not clear to me what that 
means. It seems to me that the Taliban is pretty bold right 
now. They have been very aggressive over the last year or so, 
the last two or three years. It is not clear to me they could 
be any more aggressive than they are now.
    And, frankly, if they want to lie low either in Afghanistan 
or Pakistan, I think that would give us a huge opportunity. 
Obviously, it would cut down on the number of innocent Afghans 
they are killing, and it would give us an opportunity to move 
forward with the Afghan security forces' growth and improvement 
in capability, as well as development in the country and 
governance.
    So I think that--I mean, they read our newspapers. They 
read our newspapers on Iraq, when the surge started in Iraq, 
and they knew the pressures against continuing it for a 
protracted period here in Washington. So it seems to me that 
signaling a beginning of a process of transitioning, province 
by province, district by district, with a firm date, actually 
serves our interests.
    The Chairman. Before I ask Admiral Mullen, can you honestly 
characterize that date as a goal?
    Secretary Gates. I would tell you, Mr. Chairman, I think 
that date is fixed. I think the President is committed to that 
date. In theory, obviously, the commander-in-chief can always 
change his mind, but I would tell you he feels very strongly 
about it. And I think it is not, in his mind, a goal but, in 
fact, a fixed starting date.
    The Chairman. Admiral.
    Admiral Mullen. First of all, Chairman, I support the 
strategy wholeheartedly.
    And then, secondly, the only thing I would like to add--I 
agree with Secretary Gates on the discussion around July of 
2011. I just would like to add one comment about that.
    It has been described by some as an arbitrary date. It is 
not an arbitrary date. In fact, those of us in the military 
believe that that date is a date where we will know certainly 
whether we are succeeding or not in Afghanistan with this 
strategy.
    There is an assessment, a major assessment, which will 
occur about a year from now. That will start to look at, 
obviously, what has happened over the next 12 months and start 
to focus on what the changes or adjustments might be over the 
following year, which would certainly encompass July 2011.
    But the reason that date was picked is because we added 
10,000 Marines this year in Helmand; they immediately had a 
positive impact, particularly from the counterinsurgency 
standpoint. And so, in the middle of 2011, we will have had 
three summers, if you will, 2009, 2010, and 2011, where we have 
had those kinds of forces--or the Marines will have been there 
three years. And we will be able to assess--for three seasons, 
I mean--we will be able to assess how they are doing and where 
this is going.
    That is, obviously, enhanced with the additional forces 
that the President has committed to. And I, too, believe that 
his decision to commit the forces is one of very, very strong 
resolve to turn this around. And, two, there needs to be a hook 
out there that incentivizes the Afghans that they have to take 
the lead in lots of areas--in particular, in the area of 
security.
    The Chairman. Thank you, Admiral.
    Let me mention to the Members that, in case you don't have 
the opportunity to ask a question, questions can be submitted 
to the witnesses for the record.
    Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    Mr. Secretary, it seems to me that the start of the 
drawdown now has been clarified. It is definite; the President 
set the date. No matter what, we are starting to withdraw in 
July of 2011. But the pace, the scope, the duration is 
uncertain or even conditions-based. Is that correct?
    Secretary Gates. Yes.
    Mr. McKeon. If yes, who determined the July 2011 start 
date? Was it you or anyone in the military chain of command? 
And why does that start date make any sense? Or is it just 
semantics?
    Secretary Gates. Well, we were--both I and Admiral Mullen, 
General Petraeus, General McChrystal were all involved in the 
discussions and the recommendations to the President that 
included this date. And the date was chosen essentially for the 
reasons that Admiral Mullen just described. It is two years 
after the Marines went into Helmand, three fighting seasons. 
And we will have a very good idea by that time whether this 
strategy is working and what successes we have been able to 
have.
    I think something that is important to clarify is that this 
is going to be a gradual process of transition. And the 
transition to Afghan security responsibility will start, 
presumably, in the least contested areas, some of which, 
perhaps, could happen now. And it will involve not just the 
Afghan National Army and the Afghan National Police, but local 
authorities, local police, tribal groups, and various other 
security units.
    And it will be our commanders on the ground, in my view, 
who make the decision, who make the recommendation, that a 
district or a cluster of districts or a province is ready to 
transition to Afghan security responsibility, just as they did 
in Iraq.
    Mr. McKeon. Mr. Secretary, I think all of us say things, 
probably, that we would change given different circumstances, 
but let me just read a quote that you said on September 27th of 
this year.
    ``I think that the notion of timeliness and exit strategies 
and so on, frankly, I think would all be a strategic mistake. 
The reality is, failure in Afghanistan would be a huge setback 
for the United States. Taliban and al Qaeda, as far as they are 
concerned, defeated one superpower. For them to be seen to 
defeat a second, I think, would have catastrophic consequences 
in terms of energizing the extremist movement, al Qaeda 
recruitment, operations, fundraising, and so on.''
    Let me ask, based on what we just talked about, that we are 
going to have a review about a year from now, Secretary Gates, 
in the same exchange with Senator McCain yesterday, you 
indicated that in December 2010 the administration will conduct 
another review. And here is what you said: ``The President has 
indicated that we will have a thorough review of how we are 
doing in December of 2010, and I think we will be in a position 
then to evaluate whether or not we can begin that transition in 
July.''
    Am I correct that the administration will conduct another 
review only six months or so after all the surge forces arrive 
in Afghanistan? In Iraq, the surge forces were on the ground 
for 12 to 18 months before we turned the tide. Why is this 
enough time in Afghanistan? Why do this review in December of 
2010? Will this review also be one that could possibly take 
three months and once again put the entire strategy in 
question?
    Secretary Gates. No. First of all, it won't. It won't do 
that.
    The surge in Iraq lasted 14 months. The first troops went 
in in January of 2007, and I think General Petraeus would tell 
you that, by summer, six or seven months later, he had enough 
indications of things happening on the ground that he could 
tell that this effort was going to work, even though that was 
the period when we had the highest casualties that we suffered 
over the last two or three years in Iraq.
    I am adamantly opposed to deadlines, and I am opposed to a 
timeline in terms of completion of a withdrawal of U.S. forces, 
other than in general terms, of a period of three years or 
something like that. But I do not have a problem with setting a 
timeline for the beginning of a process.
    Again, we had to balance the question of how do you signal 
resolve and, at the same time, signal to the Afghans that we 
are not going to be there to protect them forever. I think this 
is one of the differences between Iraq and Afghanistan.
    Once it was clear the surge was working in Iraq, the Iraqis 
wanted us out as quickly as possible. There are some in 
Afghanistan, perhaps in the government, perhaps in the elites 
or whatever, probably not the general population, who would 
probably very much like to have the United States Army and the 
United States Marine Corps stay in Afghanistan indefinitely. 
They live in a rough neighborhood.
    We need to signal that is not going to happen, and they 
need to buy into this war. They need to take ownership of this 
war in their country against somebody trying to overthrow them. 
And trying to incentivize them and get them to be more 
aggressive in recruiting and retaining their soldiers and 
police and getting them into the fight is very important to the 
success of this strategy.
    Leaving it open-ended--we have not had any timelines or 
guidelines like this in Afghanistan for eight years. So the 
question is, how do you get them to take this seriously and 
that they are going to have to step up to the plate? I think 
this is the proper balance.
    Mr. McKeon. Both the President's speech and your testimony 
today do not address the requisite size of the Afghan National 
Security Forces.
    According to General McChrystal, a fundamental pillar for 
achieving success is developing a significantly more effective 
and larger ANSF, with radically expanded coalition-force 
partnering at every echelon. His assessment also stated that 
coalition forces must provide a bridge capability to protect 
critical segments of the population.
    General McChrystal's assessment recommended to grow the 
Afghan security forces to 400,000. Admiral Mullen, in your 
professional military judgment, do you believe that an ANSF of 
400,000 is both necessary and feasible?
    Admiral Mullen. Sir, we spent a lot of time on this in the 
review, and I think it was time very well-spent. It is very 
clear in that examination that the highest-risk area is the 
development of the Afghan police. The Afghan army we evaluate 
as moderate risk, but key to local security is clearly going to 
have that police force.
    We know how to do that. We recognize the challenges 
associated with that. And while that 400,000 is an aspirational 
goal out several years from now, the decision has been made to 
look at this literally year-to-year based on how we are doing.
    Right now--and General McChrystal has fundamentally shifted 
how we do this since he has gotten there, into this 
partnership, this radically different partnership. Prior to his 
arrival, essentially what we did--and we weren't resourced 
well, but what we did was we mentored or we had training teams. 
And it was just too small, it couldn't do that, which is why we 
are so far behind.
    So, each year, we have a goal. And so, for instance, right 
now, on the army side, we are 96,000. Not enough of that 96,000 
are in the field. We have to improve that from a reduction of 
overhead, get them out into the field and partner with them. 
And next year, by this time next year, about October first next 
year, that 96,000 will go up to 134,000. To achieve that, we 
have to reduce the attrition rate, increase the retention rate 
and the recruiting. And those are pretty strong goals, with 
respect to both the army and the police.
    The analytical side of this, from what we have been able to 
do, is that aspirational goal looks about right, but it is also 
going to depend on how security is going. If we are able to 
turn this around from a momentum standpoint, that will provide 
the breathing space, the opportunity to recruit more, bring 
more in, train more, develop them more quickly. So it is all 
very much linked.
    And I am confident this approach, as we go year to year, 
having that aspirational goal out there a few years from now, 
is the right approach. But right now we have to focus on what 
we have directly in front of us and make sure we succeed over 
the next 12 months.
    Mr. McKeon. The authorized force now is 134,000?
    Admiral Mullen. Yes, sir, 134,000.
    Mr. McKeon. And that is the goal to be at a year from now?
    Admiral Mullen. Right. But, again, we will assess it and 
move it up each year, but generally on that glide slope out to 
400,000. But we have to see where we are.
    Mr. McKeon. Could we maybe get from you what that goal 
would be, or should we ask General McChrystal that, what the 
goal would be a year from now? You say it is 134,000. What 
would the goal be by July of 2011?
    Admiral Mullen. Can I say, it is the thirtieth of 
September, 2011, for the army it is 171,000. I mean, we have 
each goal to get out there. But that 2011 goal, I think, will 
be tied to the realities of what we experience over the next 12 
months.
    Mr. McKeon. Is it fair to say, do you have a target date 
set for what the date should be by the time we start the 
redeployment in July of 2011.
    Admiral Mullen. I think that is very much a part of the 
assessment. We know approximately what will be--where we will 
be based on the assumptions that I have talked about. But, 
again, we have got to have an impact on attrition, retention, 
recruiting. We have got to incentivize them to come in and to 
stay. We have got to raise their pay. And General McChrystal is 
doing that because the Taliban are making more money right now 
than the Afghan Security Forces.
    We have got to get at the corruption side on the police 
side. So there is a significant amount of work right up front 
that we have got to get right that we just haven't had the 
people there for. And it is not just us; it is Coalition forces 
to train them and equip them and make sure they are qualified 
to assume the mantle of their own security.
    Mr. McKeon. What would the number be for the police at the 
same time, the goal?
    Admiral Mullen. I have got that in here. Roughly 130,000. I 
am at 92,000 today. So, in about another year, it is about 
97,000. And in 2011, at the end of fiscal year 2011, so 
September of 2011, it is about 130,000.
    Mr. McKeon. So that, instead of 400, we are looking at 300 
now?
    Admiral Mullen. That is what we think the goal should be 
for each year, and we are going to have to reassess that, and 
then to look at the longer-term requirements of what it needs 
to be.
    Mr. McKeon. I am just still kind of hung up on the number 
400----
    Admiral Mullen. I understand.
    Mr. McKeon. General McChrystal said we needed, and we are 
talking about leaving or starting to leave when we are at about 
three-fourths of that.
    Admiral Mullen. I think you said it very well, starting to 
leave. Transition. No decisions yet on the size of that 
transition. If security is going really well, it will probably 
be bigger. If it is not, it will probably be smaller. From the 
challenges that we have in developing the security force 
itself, really, I think argue for these very near-term goals to 
see how well we can do.
    Mr. McKeon. One of the concerns I have is I am afraid that, 
in our rush to leave, we might adjust our goals downwards so 
that we can claim success and leave.
    Admiral Mullen. That is certainly not the intent that I 
see.
    Mr. McKeon. I appreciate that.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you.
    John Spratt.
    Mr. Spratt. Mr. Secretary, you testified yesterday that the 
build-up of 30,000 troops would cost an additional $30 billion 
to $35 billion, I believe.
    Secretary Gates. Yes, sir.
    Mr. Spratt. I have a hard time on the back of my envelope 
trying to drive that figure. It seems to me to be awfully high 
for the 35,000 troops or 30,000 troops we are talking about. We 
will need to pay for these deployments, after all only part of 
2010. If you assume a deployment of a brigade every two months 
beginning in late January until force levels increase to 
30,000, the average level of boots on the ground for the year 
will be 17,500. Therefore, a cost of $30 billion to $35 billion 
would imply that the yearly cost to maintain each troop in 
Afghan is $1.7 million to $2 million, which is an awfully high 
figure. Could you explain to us what is in the 30 to $35 
billion estimate that you gave? Does it include, for example, 
maintaining the Afghan army and police force? Are we going to 
be picking up a substantial part of the tab for these security 
forces, especially as they grow from their present size to 
400,000 ultimately?
    Secretary Gates. Since we only receive the President's 
decision on Monday, our folks with their pencils haven't sat 
down to go through the specifics. I would tell you that some of 
the upfront costs that we are looking at, for example, that go 
beyond the troop costs, is that right now we have the money in 
the budget, I believe, for 5,000 or 6,000 Mine Resistant Ambush 
Protected (MRAP) all-terrain vehicles. With the additional 
forces that are being sent in, we are probably going to 
recommend increasing that number to protect those troops to 
about 10,000. So that is several billion dollars in and of 
itself just for force protection with the MRAPs. But we will 
certainly get you the specifics. Now that we know the numbers 
and we have a pretty good idea of the timelines of when they 
are going in, we can now refine the numbers and get those to 
you. The 30 to 35 billion was basically a ballpark figure, and 
we now need to get down and get the details.
    Mr. Spratt. Does it include a substantial payment, subsidy, 
in effect, of the Treasury, our resources, for the Afghan 
forces?
    Secretary Gates. I don't think so, Mr. Spratt.
    I think that there is money to help pay for the training 
and equipping of the Afghan National Army and police in the 
$130 billion Overseas Contingency Operation (OCO) budget 
request that you already have, that the Congress has before it. 
I don't think there is additional money for that in the money 
we are talking about that would be on top of the 130.
    Mr. Spratt. Does the latest proposal, 18-month proposal, 
the change in time frame imply a change in tactics? Will there 
be an increase in ops tempo, an increase in certain 
commitments, certain forces as a result of this compressed time 
frame?
    Admiral Mullen. As far as our overall force levels, our 
deployed force levels, there is obviously a big piece tied to 
the drawdown in Iraq, which is still very much on plan and on 
schedule. We expect to start that in the March timeframe and 
come down from roughly 115,000 there to 50,000 or so by the end 
of August, and then complete that withdrawal by the end of 
2011. So these forces won't--it won't pick up our overall op 
tempo period. We will still be able to have on the Marine Corps 
side dwell time move out towards two to one fairly 
significantly, a little more slowly on the Army side. So it 
hasn't increased our op tempo, based on where we are right now, 
dramatically. Clearly, adding these forces is going to impact 
the op tempo. But as far as where we are right now, overall, it 
will actually come down just a little bit for the Army.
    Mr. Spratt. Could I quickly ask Jack Lew, does the State 
Department have an interest in the $35 billion? Do you expect 
to get substantial, a significant sum of additional money for 
foreign aid and assistance?
    Secretary Lew. Mr. Spratt, there will be additional 
requests on the civilian side, both for some additional 
civilians that will be deploying because there will be 
additional areas that we are going to be partnering for the 
civilian-military (civ-mil) plan, and also because there will 
be an increased amount of the country where we can be having 
our civilian program operate effectively. We are also working 
since Monday to put together the precise numbers, but there 
will be a civilian component as well.
    Mr. Spratt. If you could get us clarification along these 
lines, we would very much appreciate it.
    Thank you very much.
    The Chairman. I thank the gentleman.
    Mr. Bartlett.
    Mr. Bartlett. Thank you.
    I know that, in the military, theirs is not to reason why; 
theirs is just to do and die. But, Mr. Secretary, when I stand 
by that coffin with that young widow, I have to ask, why? And I 
feel compelled to voice once again the question of an 
increasing number of my constituents: Why is our involvement in 
Afghanistan not the ultimate exercise in futility? Since, sir, 
if we are successful in doing what no one else has ever done, 
the British Empire, the Soviet Empire, and we win, what will we 
have won? Since the bad guys will simply find refuge in 
Pakistan, and then if we invest who knows how many years and 
how much blood and treasure in driving them out of Pakistan, 
they will go to places like Yemen and Somalia; I am not sure, 
sir, that the American people can be convinced that denying 
them privileged sanctuary in Afghanistan when they can find 
sanctuary in places like Yemen and Somalia is worth the 
enormous cost in blood and treasure.
    If the reason, sir, that we have to be there is because a 
destabilized Afghanistan would destabilize Pakistan and nuclear 
weapons would come loose, then, sir, we need to make that 
argument.
    In this connection, let me ask you a specific question. Is 
the model of a national Afghan government, a national army, 
futile, since it is contrary to Afghan's 300-year history of a 
nation of tribes bound by social conventions? Under Karzai's 
three-time ratified national government army model, the Taliban 
now controls 11 of 34 provinces. The Afghan National Army 
controls one, I think. And I believe that the National Security 
Forces probably control none of those provinces. And they are 
seen as being ineffective, incapable of being effective for a 
number of years.
    Secretary Gates. Mr. Bartlett, one of the concerns that I 
had after the President's decisions in March was that they were 
interpreted as the United States supporting a full-scale 
nation-building in Afghanistan and also the creation of a 
strong centralized government. As you point out, the latter has 
not existed in all of Afghan history. And one of the elements 
of the dialogue that we have had inside the administration for 
the last three months is, how do you narrow that mission and 
make it more realistic? How do you communicate that what this 
is all about is really our security, and what we are looking at 
is enabling the Afghan government and the local authorities to 
be able to reassert security control in their own areas?
    One of the pieces of this that has not been discussed is 
the fact that about 60 percent of Afghanistan is not controlled 
by them, by the Taliban, or where they have no significant or 
they don't have predominant influence. What we have to do, and 
a piece of the President's strategy is, working with the 
subnational parts of Afghanistan, working with the tribal 
suras, working with the village elders, working with the 
district governors and leaders and as well as those in the 
provinces, and in fact a good bit of the security that may come 
as part of this transition will be local security, local 
police, as we have seen develop in parts of Wardak province. 
And so it won't be necessarily that we turn over security 
responsibility to the Afghan National Army but rather to local 
authorities who have established control, reestablished control 
of their own areas from the Taliban. So it is a combination of 
all of these things that we will work with. And I think that 
our view is that what we have to do is try and figure out--
well, not try and figure out. But what we have to do is 
strengthen again the local and traditional governance systems 
in Afghanistan that in fact can reestablish local control and 
deny the Taliban the authority. So I think that--and I also 
would say that, as we partner with the Afghans, you get a mixed 
picture. But the reality is, for all of the comments about 
corruption and everything else, more than 2,000 Afghan police 
have died in the line of duty for their country. About 1,000 of 
their soldiers have died. And so I think that this picture is 
not focused strictly on creating something in Kabul that has 
never existed before, but also figuring out at the subnational 
level how to re-empower local authorities, because they will be 
perhaps our most essential partners in denying the Taliban 
control.
    Mr. Bartlett. Thank you, Mr. Chairman.
    The Chairman. Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Secretary Gates and Admiral Mullen, thank you for taking 
the time to make this appearance before our committee. Though 
it is always a difficult decision to make putting our young men 
and women in harm's way, I feel that answering the much needed 
request of our commanders on the ground was the best response 
to the current situation in Afghanistan. I have a few questions 
that I will be asking of you gentlemen today and as we look 
forward to the movement of additional troops into Afghanistan.
    First, I would like to see about, will forces be rotated 
directly from Iraq to Afghanistan? And, if so, how will the 
Department of Defense (DOD) ensure that they receive the 
training that they need, because, as we all well know, the 
environment is totally different?
    And, second, what analysis has DOD done on its ability to 
provide the key enablers, such as support forces in 
intelligence, surveillance, and reconnaissance (ISR), and which 
are already in high demand, to currently support the drawdown 
in Iraq and troop increases in Afghanistan? We are drawing down 
here and increasing there.
    And, lastly, given the many logistical challenges in 
Afghanistan, how is DOD able to synchronize the arrival of the 
troops with their equipment? And the reason I ask is because we 
just made a little tour of some of our military and some of our 
young men and women who are deploying, and as I mentioned to 
you earlier, Mr. Secretary, you will probably be getting a 
letter from us about some of the equipment that they feel is 
inferior to what they need.
    So maybe if you can answer those three questions, because I 
am concerned of putting somebody in harm's way if they don't 
have the--there are a lot of things that worry me. When we 
increase the troop levels from maybe, you were saying from 
300,000 to 400,000 if we have to, are we going to have enough 
non-commissioned officers (NCOs)? Do we have enough captains? 
Are we producing enough of them to carry out these duties? I 
yield to both of you.
    Admiral Mullen. Sir, let me actually try to answer that 
last question first.
    I see monthly from General Casey a lengthy report on the 
overall assessment of various measures of how the Army is doing 
in terms of things like that. And right now we are. So the 
retention of our captains, the retention of our majors, meeting 
the needs that we have, and, in fact, have seen over the last 
year the overall recruiting and retention numbers for all our 
services, but particularly for the Army, go up. A great 
statistic as far as I am concerned is that a year, year and a 
half ago, the overall percentage of high school graduates that 
were entering the Army was about 80 percent, 81 percent, which 
is low. We like it in the nineties. Over this last year, it has 
been 95 or 96 percent.
    There is nobody that has been more dedicated to making sure 
that our men and women in harm's way have the right equipment 
than Secretary Gates. And I can and I personally attest to 
that. I watch him do that all the time. And I know you have 
spent a great deal of time on this as well, and I really 
appreciate that.
    With respect to your questions, largely, forces will not be 
moving from Iraq to Afghanistan. There are some enabling 
forces, critical enablers that we have moved in very small 
numbers literally on a deployment, but it is a very small 
number. There are forces that were headed for Iraq that are now 
being re-missioned to go to Afghanistan, first of all.
    Secondly, we have recognized for some time that Afghanistan 
was coming, and so our training has been very focused on that 
in ways that we hadn't before. And, in particular, we are 
focusing on culture and language, things we learned in Iraq we 
had to get right. They are the same issues, but it obviously 
takes a different skill set, if you will, in Afghanistan. So we 
are very focused on that as we transition. But we have been in 
transition now for the better part of the last year, year and a 
half, the Marine Corps specifically, as the first ones that 
really put significant additional forces there.
    We are very focused on the enabling pieces. This gets to 
your second question. We are short in some of those. In fact, I 
worry more about their op tempo, their dwell time staying at 
one-to-one than I do some of our bigger units. And we are very 
focused on both buying that, distributing it, and focusing on 
the fight. And General Odierno has been very supportive of this 
overall effort to give up some enablers that he had in order to 
support Afghanistan.
    And then just lastly, logistically, focused on this for 
months. The unsung heroes, and many of them are in logistics 
and transportation, and they are performing magnificently. We 
know the challenge, and we think we are going to be able to 
support getting them there as fast as possible.
    Mr. Ortiz. I want to thank both of you for your service. 
Thank you so much.
    The Chairman. I thank the gentleman.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    Mr. Secretary, the press reports today indicate that you 
initially resisted a timetable; that it was the White House 
that came up with the idea of setting a date, but that you were 
persuaded once you got some additional flexibility to adjust it 
according to the situation on the ground. Is that true?
    Secretary Gates. Well, not entirely. I think that all of us 
learned as part of this dialogue, it was also reported that--
and accurately--that I am opposed to troop increase because I 
was worried about the footprint on the ground. I was, over this 
process, persuaded by General McChrystal that it is less the 
size of the footprint than what the soldiers are doing in terms 
of how the Afghans react to them.
    As I said earlier, I have in the past been adamantly 
opposed to deadlines. And I think that, and where I was 
persuaded in this case, was the importance of incentivizing the 
Afghans and finding the right balance, and my concerns were 
mitigated by, frankly, our military's view of when they were 
convinced they would be able to say with some confidence 
whether the strategy was working. So I would say that most--I 
would say virtually everybody involved in this dialogue in 
front of the President learned something, changed their 
positions, adjusted their positions, and at the end of the day 
all came out unanimously supporting the recommendations that 
went to the President and that he decided on.
    Mr. Thornberry. Have you heard any evidence, or is there 
something that you think is particularly persuasive that says 
setting this date will be effective in getting the Afghans to 
do something that they would not do otherwise?
    Secretary Gates. Well, again, I go back to what I said a 
little earlier. We had eight years without any timelines, 
without any pressure on the Afghans to perform. And it seemed 
to me that, you know, as we go into this and with this size of 
American commitment, and don't forget, we are talking about 
really a two-year period starting last July when we began to 
put additional resources into Afghanistan beyond what had been 
approved in the last administration. And I was persuaded by--I 
have been persuaded by General McChrystal and by General 
Petraeus and others that this beginning of a period of 
transition on a date certain will in fact incentivize the 
Afghans. And this is one of the things that we will be 
watching.
    Mr. Thornberry. A few weeks ago we had General Keane here 
testifying. He testified that it is critical that tribal 
insurgent leaders sense our commitment to see this through to 
the end. War is always about breaking the will of your 
opponent.
    That seems to resonate with me, I guess. You talk about 
this balance between sending a message to the Afghans and 
sending a message to adversaries and friends about our 
commitment there. I guess my thought is, the more important 
conveyance is to make sure that tribal sheik in Afghanistan and 
that Inter-Services Intelligence (ISI) officer in Pakistan has 
no doubt that we are going to stick with this through thick and 
thin; otherwise we won't get the information, we won't get the 
loyalty and so forth, that we need to be successful. Are you 
concerned about today's reaction in Afghanistan and Pakistan 
that seems to question, I guess, somewhat this date where the 
troops are going to be there for such a short time before the 
withdrawal is required?
    Secretary Gates. First of all, it is up to us to sit down 
with them, as we have in the course of our discussions over the 
last several months, and explain what we are talking about. 
Again, I think the important aspect of this is that July 2011 
is the beginning of a process, and the pacing of that process 
and where it will happen will be conditions based on the 
ground, as the President said.
    But the reality is, look, another audience here is the 
American people. And we have been at war for eight years. This 
is the longest war in our history. And the American people, I 
think--and you all are the elected representatives. But it 
seems to me the American people, American people want to know 
that this isn't going to be just another 10 years of commitment 
at $100 billion a year and with our troops committed to the 
degree that they are now. I think there is plenty of 
flexibility in this process in terms of the pacing of the 
drawdown and the conditions based that it certainly has left 
our military commanders feeling comfortable about it.
    The Chairman. I thank the gentleman.
    Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    And thank you, Mr. Gates and Admiral Mullen.
    Let me start by saying our Nation is very, very lucky to 
have both of you where you are. If I ask you tough questions, 
it is because I think it is my job.
    In Colombia, we have spent billions of dollars and over the 
course of the past decade sent thousands of advisers to help 
the Colombians keep their nation from turning into a narco 
state. It is common knowledge that Karzai's brother is one of 
the biggest narcotics dealers in Afghanistan. It is common 
knowledge that a lot of the warlords on our side are in the 
narcotics business. The testimony before this committee said 
that if we went after the narcotics trade, those warlords would 
turn against us.
    And I realize that you have been dealt a tough hand, and I 
am not trying to make it any harder, but I think this is a fair 
question. Why do we spend billions in Colombia and risk the 
lives of thousands of Americans trying to keep that from 
becoming a narco state when we are apparently willing to accept 
the fact that the Karzai government is a narco state, and in 
Iraq, at some point, the oil revenues paid the sheiks to get 
people to quit shooting at us. And I am glad that happened. 
That started about last April.
    But all I can see in Afghanistan is a future where the 
major source of revenue is narcotics. And do we really want to 
establish a government with American dollars and, more 
importantly, American blood that is just nothing more than a 
narco state because they are not the Taliban?
    Secretary Gates. Well, I think Secretary Lew probably has 
some things to say on this, but I would make a couple of 
points. First of all, ISAF changed its strategy with respect to 
the narcotics trafficking about a year ago and aggressively 
began to go after labs, drug lords, and the traffickers. The 
eradication----
    Mr. Taylor. Does that include the president's brother? I 
want to make it clear, President Karzai's brother.
    Secretary Gates. I understand. Let me just say that, as 
Secretary Clinton testified in the last day and a half, we 
understand the importance of this corruption and how corrosive 
it is. And the truth of the matter is there is a heck of a lot 
more money going into corrupt pockets that is coming from us 
and the international community than is coming from the narco 
traffickers. We are putting tens of billions of dollars into 
Afghanistan, and too much of it is ending up with sticky 
fingers along the way. And so we are putting in place some 
procedures in terms of certifying ministries, certifying 
ministers, governors, and others that we have confidence are 
not corrupt. And we won't do business with the ones that are 
corrupt at the same time that we are going after the narcotics 
guys.
    So we do understand the nature of this problem. We do 
believe it is a serious problem. Narcotics, we think, 
represents about a quarter of the $12 billion gross domestic 
product (GDP) of Afghanistan at this point.
    And the good news is one of the big pieces of this program 
is, frankly, our agriculture program to give these guys an 
alternative. I mean, for the farmer, the poppy is not a 
particularly great crop. He has got one customer who doesn't 
negotiate on the price, and you can't feed your livestock these 
things or your family. So we have some pretty expansive 
programs as part of the strategy going forward to try and deal 
with this and give them an alternative. And the truth of the 
matter is there was a significant reduction in narcotics 
production this year in part because the price of wheat became 
competitive.
    Mr. Taylor. Mr. Secretary, what about President Karzai's 
brother?
    Secretary Gates. I am just not going to talk about that in 
an open session. We are dealing with a sovereign government.
    Mr. Taylor. Someone from our State Department before this 
committee admitted that it was true.
    Secretary Gates. Well, we have problems with him. There is 
no question about that.
    Mr. Taylor. But, again, don't you think it ought to start 
with the president's brother abiding by the rule of law? Is 
that not one of the things----
    Secretary Gates. We understand the problem.
    Mr. Taylor. Mr. Secretary, again, we as a nation are lucky 
to have you where you are. You have got a tough job.
    The Chairman. I thank the gentleman from Mississippi.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    And, gentlemen, thank you for being here and the leadership 
to our country that you provide. The day that the President 
made his announcement, in the Jacksonville paper, which is the 
home of Camp Lejeune Marine Base, the heading of the local 
article, ``Obama Expected to Send 30,000 More Troops to 
Combat.'' In the introductory of the article, I will just read 
this part: Local military are reacting to the news with 
skepticism and concern. The article interviews three Marines 
and one Navy corpsman.
    Mr. Secretary, you have tried for many years, and I applaud 
you for this effort, to get North Atlantic Treaty Organization 
(NATO) to understand that this war in Afghanistan is their 
responsibility as much as it is ours. My question to you would 
be, if NATO is counted on to provide, I was thinking the number 
of 7,000 troops, more troops, would these troops be trigger 
pullers? Would they be involved in combat with the Taliban and 
al Qaeda?
    Secretary Gates. Our hope and expectation is--what we would 
like to do is have our ISAF partners, other than those who are 
partnered with us in the Regional Command South, basically take 
total responsibility for the north and the western parts of the 
country so that we could concentrate our forces in the south, 
in the southern and eastern parts of the country. So our 
expectation is that the additional forces, as with many of the 
forces they have there now, would in fact be prepared to engage 
in combat as necessary.
    Obviously, the security situation in the north and the west 
is not as difficult as it is in the south and the east, and we 
think that they should be able to take responsibility for that. 
And we have some commitments that give us confidence that we 
are in fact going to get another 5,000 to 7,000 troops. And I 
would point out that, as we have increased our numbers, so have 
our ISAF partners. When I took this job, there were 17,000 
Europeans and other ISAF partners in Afghanistan. If we get 
this additional 5,000 to 7,000, there will be about 50,000. So 
they have tripled the number of troops that they have. And I 
would say, also, they have removed a lot of the caveats that 
used to limit what their troops could do.
    Mr. Jones. Mr. Secretary, Admiral Mullen, I have this 
second question.
    Again, I like many on this committee, maybe all on this 
committee, worry about the stress on the force and how many 
times we can continue to ask these brave men and women to keep 
going back and back.
    And I do want to thank you, Mr. Secretary, and Admiral 
Mullen, for taking the time you did to try to figure out what 
is the right policy for Afghanistan.
    The question is, of the 30,000 that will be going to 
Afghanistan, how many of the 30,000 can you give us, if not 
today, maybe to the committee, the number of deployments that 
each one of the 30,000 have been on? Do you know now how many 
deployments the 30,000 have been on? Has it been half the 
30,000 have not been to Afghanistan or Iraq and the other half 
a number of times? Can you answer that, or would you like to 
submit that to the committee?
    Admiral Mullen. Mr. Jones, let me take a shot at it. I 
can't give you a complete answer, but I think it is an 
important question. On the Marine Corps side, I think nobody 
knows this better than you, we have rotated basically every 
seven months with respect to deployments. And the expectation 
is, for the major units, that will continue in the Marine Corps 
even as we shift from--as we have shifted from Iraq to 
Afghanistan. What I can't tell you is, for these units--there 
are sort of two measures--for these units, how many deployments 
this unit, a unit, has been on. And then, in that, how many 
deployments on average have the individuals in that unit seen? 
And that is what I would need to get back to you for.
    Although the Marine Corps has managed this in a way--and 
the growth of the force to 202,000 has been incredibly 
important here, so that actually General Conway, even with 
these deployments, is going to get over the next year to twice 
as long at home as deployed. And, as you may remember, it 
wasn't that long ago we were at one-to-one.
    The Army is more challenging. And the major units, the 
brigade combat teams for the Army, typically a unit is on its 
third or fourth deployment. There is plenty of change-out in 
the units between deployments, and the Army is going to get to 
its two-to-one goal in a couple of years as opposed to the 
Marine Corps.
    I just want to tell you that it is something the Secretary 
and myself, the service chiefs, General Casey and General 
Conway spend an awful lot of time on, recognizing the stress 
that they have been under. But that is where we are right now.
    Mr. Jones. Thank you, sir.
    The Chairman. I thank the gentleman.
    Mr. Reyes.
    Mr. Reyes. Thank you, gentlemen.
    Gentlemen, thank you for being here. I know it has been a 
tough several days. I just want to go on record as supporting 
the President and his decision, and particularly the thoughtful 
process that he used to come to that decision. And I know he 
stated the other night that we are not alone in this effort in 
Afghanistan. I believe he said 43 other nations are involved.
    My question--and I will ask it to Secretary Lew. My 
question is, I know we have ongoing efforts to try to elicit 
additional cooperation from other nations besides the 43. If 
you can give us a status report on that, how successful are we?
    And the other question I have for any or maybe all of you 
is the following: How are we working to ensure that 
developmental funds will reach the intended recipients? Because 
one of the--I think one of the critical issues here is 
reassuring the nations we are trying to recruit to help in 
addition to the 43 to support in an effort that is going to be 
successful. So how are we doing that? How well are we doing? 
And what is your anticipated success?
    Secretary Lew. Mr. Reyes, the partners are participating in 
different ways. Some are providing troops; some are providing 
development assistance. Part of the President's plan called for 
allies to provide troops. The responses have been very 
positive. Secretary Clinton is in Brussels, and we are 
confident that we are going to get commitments that will be 
very much in line with what was expected.
    On the development side, our partners are doing the same 
kind of work we are doing. They are doing the kind of 
development work in agriculture and rule of law, and we are 
working very cooperatively both to provide programs in the 
areas that we control, to share best practices, and to work 
with the Afghan ministries to build capacity.
    The very important question you ask on how to make sure the 
money gets to where it is intended, that is a challenge, and we 
have made it clear that it is not something that has just one 
answer. We are going to work with Afghan national ministries 
that have the capacity to get the money where it goes. Some of 
them have done very well.
    In the agriculture area, which is central to the issue that 
Mr. Taylor was asking about, we have a lot of confidence that 
the agriculture minister has a plan, that the money is getting 
to the areas, to the farmers to give them seeds to plant legal 
crops. And for most Afghan farmers, if they can plant and sell 
legal crops, they don't want to grow poppies. So it is part of 
the counternarcotics policy as well as the general development 
policy.
    We have to work at the subnational level. We need to work 
with provincial governors. We need to help build governance in 
areas where it hasn't been. When I was in Helmand right after 
our military moved in to make that area a place where we could 
do development work, it was almost overnight that we had 
development workers helping build an air strip so that farmers 
could get their crops out of Helmand, giving them seeds so they 
can plant legal crops, and working in communities to try to get 
local leaders to meet with their people sometimes for the first 
time. I know the governor of Helmand has said that it was 
incredibly important that the civilians were there with the 
military from day one.
    Secretary Gates. Part of what I think is important in this 
is that we not take the Soviet approach and focus too much on 
big signature projects that take years to complete. What we 
need are, I think, principally small-scale efforts that reach 
individual Afghans pretty quickly and where they see their 
lives change for the better almost immediately after U.S. 
forces and our partners and the Afghans clear an area. And I 
think you can find ways through using these provincial 
reconstruction teams and the other civilians that are with our 
troops to do that. And I think that a one-room school, an all-
weather road, a small bridge, a well, these are the things that 
matter to the individuals and that will make them want to be 
our partners in this.
    And I think that, frankly, one of the things that Secretary 
Clinton and I talked about in the House Foreign Affairs 
Committee yesterday is that the State Department and AID and 
our civilians out there need the same kind of flexibility in 
terms of the way they are able to commit funds for these kinds 
of things that our commanders have with the Commander's 
Emergency Response Program (CERP) funds so that they can be 
there the next day and commit and provide some dollars for 
people to do that work.
    Mr. Reyes. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from Virginia, Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    And as Congressman Taylor said, I am going to ask some 
tough questions, but I do appreciate you being here.
    There was a time in our country when words mattered, when 
laws and statutes mattered.
    Mr. Secretary, Title X, Section 231 of the U.S. Code 
required that you submit to us, to this committee, a 
shipbuilding plan when you sent your budget over so that we 
would know where the money was going to be spent on our ships, 
and that you certified that the budget you sent over complied 
with that shipbuilding plan. You just refused to do it this 
year.
    Title X, Section 231(a) required that we have an aviation 
plan sent over to us and that you certify or have an assessment 
that the budget comply with it, and you just refused to do it.
    House Resolution 477 was unanimously approved by this 
committee on both sides of the aisle requiring that you would 
submit to us that shipbuilding plan that the law required by 
September 15. You just refused to do it.
    H. Res. 478 required an aviation resolution, and that 
assessment that you would just comply with the law and submit 
it to us by September 15. You just refused to do it.
    Title 50, Chapter 15, Subchapter one, Paragraph 404(a) 
required that we have a national security strategy submitted to 
us by the President within 150 days after he took office. We 
didn't get it.
    The Guantanamo Executive Order issued on January 22, 2009, 
said that Guantanamo Bay would be shut down no later than one 
year from the date of this order, which would have been January 
22, 2010. We know that is not going to happen. I disagreed with 
that order, but that is what it said.
    So my question, Mr. Secretary, to you today is this: If we 
are not going to comply with Title X, Section 231; Title X, 
Section 231(a); H. Res. 477; H. Res. 478; Title 50, Chapter 15, 
Subchapter one, Paragraph 404(a); Guantanamo Executive Order, 
what confidence do our allies and our troops and our citizens 
have that the words we are hearing now are words that have 
meaning and are not just semantics?
    And as you think about that question, Admiral, I would ask 
you this question. You testified earlier today that General 
McChrystal got all he wanted, everything he wanted when he 
asked for 30,000 troops. And the question I would ask you--I 
have never known a general to get all he wanted. I have known 
them to get all they formally requested but not all they 
wanted. And I would just ask you, are you saying to this 
committee that all General McChrystal ever wanted was 30,000 
troops to wage the war that he is having to wage now?
    Mr. Secretary, I give you that time, and then Admiral 
Mullen.
    Secretary Gates. First of all, with respect to the 30-year 
aviation plan and shipbuilding plan, it was important for us to 
be able to get a five-year defense plan from the administration 
so that we had some predictability, and we are in the process 
of doing that. The five-year defense plan has been put forward. 
It was not for fiscal year (FY) 2010.
    I can provide you that kind of--I can provide you a list. 
It will be meaningless, because we don't know. We don't know 
what the resources will be until we get the five-year plan.
    Mr. Forbes. Mr. Secretary, and again, I don't mean to 
interrupt you, but that is not what the law says. And the law 
says that you submit whatever plan you are working on. If we 
have no plan, we need to know it when we are voting on budgets, 
that we have don't have a plan. We are waiting for it.
    But the reason that the law requires it is because it is 
important that we know that, one, we have a plan, and what this 
budget is trying to reach in that plan. So, with all due 
respect, I would have appreciated and I think this committee 
would have appreciated at least some response back as to why we 
weren't complying with the law on doing that.
    And I yield back.
    Admiral Mullen. What I thought I said earlier about General 
McChrystal, what I meant to say, was that the strategy that the 
President has executed and made the decision on with respect to 
the 30,000 troops is, General McChrystal is going to get what 
he asked for in 2010. He is going to get those troops in some 
cases more quickly than he had originally asked for them. And, 
to me, that is significant, because that will give him the 
thrust to turn the momentum around, turn this insurgency 
around, which is his number one concern. And outside that, 
longer term, there----
    Mr. Forbes. And I appreciate that. I only have got eight 
seconds. And I will just say this. It is a difference to us 
when we say he got all he wanted than all he officially 
requested.
    Admiral Mullen. I would agree there are very few, if any, 
commanders that have ever gotten everything that they wanted, 
myself included.
    The Chairman. I thank the gentleman.
    Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    Mr. Secretary, as we anticipate this influx of troops into 
Afghanistan, the normal flow and plan that goes on with moving 
large numbers of troops around, there are some pretty good 
restrictions set in law by Congress on the role that women can 
play. I am not asking for an administrative position. But would 
it be helpful if those restrictions, those legal restrictions, 
were removed so that you were free to move troops around 
better, given the nature of counterinsurgency in both Iraq and 
Afghanistan?
    Secretary Gates. I think Admiral Mullen is probably more 
familiar with these restrictions than I am. But certainly, on 
the logistics side of it, I am not aware of any restrictions 
with respect to moving the troops to Afghanistan and out of 
Iraq and so on.
    But, Admiral.
    Admiral Mullen. I guess, Mr. Snyder, where I would go with 
that is I am not aware of any major restrictions which are 
really hurting us in terms of constraining our ability to do 
that.
    But I do think it may be worthwhile, on a little larger 
level, to look at what we have learned over the last seven or 
eight years of war and assessing that. In fact, I have talked 
specifically with General Casey about maybe it is time for us 
to review that to see if there are some changes that we should 
make that may not be applicable directly to what we are doing 
right now or that could be in the next couple of years but 
would be applicable based on what we have learned in the long 
term.
    Dr. Snyder. Secretary Gates, over the last few years, you 
have had some pretty strong statements about some of the 
difficulties we have had on the civilian side of government, of 
having the civilians following the surge into Iraq. Are you 
confident that we will be able--that the civilian side of 
government will be able to do what Admiral Mullen needs it to 
do to accomplish the missions in both Afghanistan and Iraq?
    Secretary Gates. This is clearly not a problem that can be 
solved in the short term. I think that--I have confidence that 
every effort possible is being made to get more civilians into 
Afghanistan. And there have been a lot of changes in policies 
and practices at the State Department. Secretary Lew can talk 
to that.
    But the problem overall is that the State Department--and 
this is my old song. The State Department, AID, other civilian 
agencies involved in national security have been starved of 
resources for decades. You can't turn that around overnight. 
When I left the government in 1993, there were 16,000 people 
working in AID. They were deployable. They were expeditionary. 
They had the languages. They were prepared to live in 
rudimentary conditions and even dangerous conditions. AID, when 
I came back to government, had 3,000 people, and they were 
mainly contracting people.
    So building that cadre of people, building a larger cadre 
of Foreign Service officers, getting the kind of agricultural 
experts that we need for this task is something that where the 
groundwork laid today may not pay dividends for five years or 
more, but it is important to start.
    But as I say, just to repeat, I think everything that can 
be done right now to get people into the field as quickly as 
possible, civilians, is being done. And, frankly, it is a whole 
of government effort, as Jack would tell you. They have got 
people from the Department of Agriculture and the Justice 
Department and various other departments of government 
participating in this.
    Dr. Snyder. Mr. Chairman, I have about a minute and a half 
left.
    Mr. Owens of New York, if you would like to ask one 
question, I would be glad to yield the remainder of my time to 
you.
    Mr. Owens. Thank you very much.
    I do have a question. Early in the testimony there was a 
reference to the fact that if we pulled out now, we would 
likely see a civil war occur in Afghanistan. What do you 
believe will cause that not to occur as we begin the pullout in 
2011 given the history in that region?
    Secretary Gates. The key is reestablishing traditional 
forms of governance at the local level in the districts and the 
provinces. It is having a credible government where we have at 
least been able to strengthen the capacity of key ministries, 
such as defense and interior, where we have high-quality people 
in charge of them.
    The thing to remember is that a very high percentage of the 
Afghan people, based on all the polling and all the information 
available to us, like 80 to 90 percent of the Afghan people do 
not want to see a return of the Taliban. But the Taliban 
intimidate. They murder. And until we can provide a security 
environment where people know that they will not be subject to 
that kind of retribution, we will have the danger that the 
Taliban will be able to continue the kind of momentum that they 
have had for the last year or two.
    Mr. Owens. Thank you.
    The Chairman. I thank the gentleman.
    Before I call Mr. Miller, let me ask you a quick question. 
Has it been made known as to what troop increase, if any, the 
NATO countries are willing to proffer?
    Secretary Gates. A number of countries are talking about 
making commitments. We have received some firm commitments in 
two telephone calls. Day before yesterday, I received firm 
commitments of upwards of 2,000 troops. But these countries 
haven't announced their willingness to do this to their own 
people, so we can't preempt them. I also think that a number of 
countries will wait until after the London conference in 
January that Chancellor Merkel and Prime Minister Brown have 
called on Afghanistan, and I think that some countries will 
wait until then.
    But the efforts that Secretary General of NATO Rasmussen 
and the rest of us have made, Admiral Mullen, the Secretary of 
State, National Security Adviser, and so on, I think give us 
pretty high confidence that we will meet the numbers that we 
have set forth.
    The Chairman. I thank the gentleman.
    Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman.
    Gentlemen, one of you in your testimony just a few minutes 
ago--and I don't recall which one it was, but both of you can 
respond, if you would. I think the comment was that there has 
been no pressure for the Afghans to perform over the last eight 
years. Is that a true statement?
    Secretary Gates. I think that there has been--there has 
been verbal pressure, but I think there has not been a serious 
exercise of leverage.
    Mr. Miller. You were Secretary of Defense. I mean, you 
didn't pressure the Afghan people to perform?
    Secretary Gates. Every meeting that I had with the minister 
of defense, every meeting that I had with President Karzai, the 
subject of recruitment, retention, strengthening their military 
capabilities came up.
    But the leverage is more in the kinds of assistance that we 
have been offering, not military assistance but civilian 
assistance, subsidies and so on. And I think there is some real 
opportunities for that leverage.
    Mr. Miller. Well, and is part of that leverage bypassing 
the Karzai administration with the funds and going to some of 
the local provinces and areas instead of giving them the money?
    Secretary Gates. Well, I will defer to Secretary Lew.
    But I think that--as I said earlier, I think that we are in 
the process of developing some procedures in terms of trying to 
tackle this corruption problem where we will not deal with 
ministers and ministries that we believe are corrupt. We will 
not deal with agencies or organizations that we believe are 
corrupt. And, as I said just a few minutes ago, I think that 
the more we can get the money directly to villages and local 
authorities, the more successful we are likely to be.
    Mr. Miller. And to Mr. Taylor's point earlier, I hope that 
also means that we will not deal with governors or mayors that 
are corrupt, either, even if they are the brother of the 
president of the country.
    Secretary Gates. I think that we have to make very--there 
are certain provinces and certain ministries that are critical 
to our success, and I think we have to be willing to use 
whatever leverage is at our disposal to ensure that the people 
who lead those ministries and who are the governors of those 
provinces are competent, honest people we can work with.
    Mr. Miller. Yesterday you had an exchange with Senator 
McCain where you explained how the U.S. forces would begin 
withdrawing in July of 2011, and this was your response: I 
think it is the judgment of all of us in the Department of 
Defense involved in this process that we will be in a position 
in particularly uncontested areas where we will begin to 
transition by 2011.
    Is that a correct statement?
    Secretary Gates. That sounds right.
    Mr. Miller. So if this is correct, the drawdown occurs only 
when the areas are uncontested. So, in other words, we redeploy 
when we have accomplished clear holds and build. Correct?
    Secretary Gates. Correct.
    Mr. Miller. Can you name one province in Afghanistan where 
we have U.S. forces or intend to send U.S. forces that is 
currently uncontested?
    Secretary Gates. I would have to look at the intelligence 
reports and get that back to you.
    Mr. Miller. Admiral Mullen.
    Admiral Mullen. General McChrystal's plan overall is to 
send the bulk of U.S. forces to the east and to the south, 
which are very contested. We have got forces out in the west 
where there well could be--where there is not that significant 
of an insurgency, for instance, some forces out there and 
coalition forces as well.
    Mr. Miller. I think it is safe to say that we have very few 
troops, if any, in places where they currently are uncontested. 
And so I guess what I am driving at is that 2011, it is going 
to be very, very difficult to find an area where our troops are 
going to be that is uncontested, thereby beginning the 
withdrawal process.
    Admiral Mullen. I mean, we see in Helmand right now in some 
of the districts or provinces, you know, it is pretty Helmand 
quiet in a place called Nawa where it was really tough before 
the Marines showed up. Now, we have got to build and transfer 
after the clear and hold, which is where we are right now. And 
by quiet, I mean the bazaar is open and there is a significant 
amount of economic activity there in a place that a few months 
ago there was virtually none. So what we have got to do is 
connect that with the rest of Helmand. For example, that is 
going to take additional troops.
    So would you say that is contested or uncontested? I mean, 
right now we have got--right now, it isn't. But we have got to 
be able to assure that we can build and transfer it so that 
that can be sustained, and that is where the Afghan Security 
Forces come in.
    Mr. Miller. Thank you.
    I have got five seconds left. Can either of you tell me why 
the President did not use the word ``victory'' in his speech 
the other night?
    Admiral Mullen. He writes his own speech.
    The Chairman. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Thank you, gentlemen, again for being before us today.
    Let me just paraphrase something that the last time I was 
in Afghanistan, which was less than a year ago or sometime 
earlier this year or late last year, that one of our people on 
the ground said to me. They said, we give dollars to the 
Afghanis to do something, to build a school, make a community 
center, et cetera, and then we check in with them, and nothing 
is done. And we say to them, you know, what happened to the 
school you were supposed to build, or what is going on? And 
they say to us, yeah, we need a school. You build it. 
Meanwhile, all the money is gone. And what this gentleman was 
saying to me was basically, if we want something done, we are 
building it for them. And, secondly, we are paying for it 
twice. This was the comment he made to our group.
    So my question for you is that, despite eight years of 
combat and billions in foreign aid and investment, the 
situation in Afghanistan has deteriorated to a point where 
President Obama has already ordered troop increases that have 
almost doubled the size of the U.S. force there in the first 10 
months of his presidency, a 100 percent increase in force 
levels.
    And yet, Admiral, you just testified that the Taliban has 
dramatically increased in size and tactical proficiency in the 
past 12 months. And apparently nothing we have done so far has 
prevented the Taliban from growing back in strength and 
effectiveness.
    So I have no doubt that we will have a new campaign plan 
for the military operations and that additional troops will 
actually increase our tactical effectiveness against the 
growing Taliban threat. But, Admiral, you also testified that 
increasing the size of our force is an exercise in futility 
unless corruption is eradicated in the Karzai government. You 
stated that no number of troops will ever win this war unless 
the Afghani people have better government and less corruption.
    And, for example, it was said that the American forces in 
Vietnam won every tactical battle, and yet we lost in part 
because the South Vietnam had plagued and weak and corrupt 
governments. So there are a lot of parallels to Vietnam; some 
substantiated, some not. But one lesson that I think we learned 
is corruption and bad government is bad government.
    So I believe that we will lose this war and that the 
deployment of these additional troops will be in vain unless 
and until we have a strong and respective government in Kabul.
    So, why should any of us believe that Karzai will fight 
corruption or significantly improve the effectiveness of his 
government? Karzai has been in power for five years. He just 
got another five years. I want to know from you what changes he 
has actually implemented this year that would persuade you that 
he has the will and the capability to eliminate corruption and 
improve governance there. And I am not asking what he has 
promised to do. I am not asking what we intend to do. I want to 
know what he has done, and I want specific examples, concrete 
evidence. Corruption prosecutions, increased transparency, 
high-level firings, putting his brother in jail.
    What good governance has happened in the last 18 months? 
What makes you think that he is going to change his stripes and 
that things will turn around?
    I would like the evidence because, as you know, hope is not 
a strategy.
    Secretary Lew. Ms. Sanchez, I think if you look, there is 
clearly a lot of work to be done.
    Everyone in the administration from the President on down 
has recognized that we need to keep the pressure on the 
government of Afghanistan to deal with the problem of 
corruption.
    But there has been progress. You look at the ministries in 
the government. They are not all great. I am not going to sit 
here and say that they are all where they should be, but there 
are quite a number of them which have tackled corruption in 
terms of firing people, in terms of trying to instill a 
different kind of culture in their ministries. We work closely 
with those ministries, ministries like the ministry of finance, 
the ministry of agriculture. We have to recognize that that is 
significant progress.
    Ms. Sanchez. Well, I would like a report on the specifics 
of what has happened, actually, because I haven't seen much 
change.
    Secretary Lew. And we are happy to provide additional 
information.
    And at the inaugural, I think it is important to note that 
the idea of tackling corruption, naming a major crimes task 
force, is an action. We have to keeping pressure on to make 
sure that that is followed by further actions. But it was a 
different message than had been the message before.
    Ms. Sanchez. Talk is cheap, as they say in this town.
    Secretary Lew. The major crimes task force is not just 
talk. It is putting in place a mechanism to do something. A lot 
of work to be done.
    Ms. Sanchez. I will just remind you, we have had task force 
after task force about changing Social Security in this city, 
and nothing has been done. So a task force sounds good, but I 
want concrete examples.
    So if you will please send that to me in writing, I would 
appreciate it.
    The Chairman. We thank the gentlelady.
    Mr. Wilson of South Carolina.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank all three of you for being here this afternoon.
    Admiral Mullen, in order to win in Afghanistan, I believe 
withdrawal of troops must be based on conditions, not an 
arbitrary date. What conditions do you hope to achieve by July 
of 2011, and what will be the course of action if we do not 
meet those victory milestones? Which is most crucial, 
conditions or an arbitrary date?
    Admiral Mullen. This is not an arbitrary date. It is a date 
actually that those of us in the military looked at what we 
need to do over the next couple of years, from summer 2009 to 
summer 2011. General McChrystal specifically has said that we 
have to turn this thing around in the next two years or we very 
possibly can't win under any circumstances. We will have had, 
as I said before, the Marines there for three summers at that 
point in time. We think it is the right strategy. We think the 
force levels are about right, and we think we can succeed with 
respect to that.
    So it is a date at which we will start to transition. There 
is no size associated with that. There is no deadline. There is 
no withdrawal date associated with that. And it is important--
and I believe this. It is important that the Afghan Security 
Forces recognize they have got to grab this as well, so that 
they are both motivated to train and equip as rapidly as they 
possibly can. And that decision, the decisions that surround 
that, where, how much, will be done, one, responsibly, and, 
two, based on conditions.
    Mr. Wilson. And I want to thank you. I think that is 
reassuring to our troops, to military families, and also our 
Afghan allies and other coalition forces. So thank you for your 
response. I think that was very clear.
    And, General, Secretary Gates, it is hard to imagine, but 
you are getting to the point of your second anniversary of 
being in service. December 18 will be----
    Secretary Gates. Third.
    Mr. Wilson. Oh, my God. Well, anyway, this is good.
    Secretary Gates. That is exactly what I would say.
    Mr. Wilson. Well, thank you. I believe you are placing 
troops where they should be.
    Under your watch, there has been over a 90 percent 
reduction in the number of attacks in Afghanistan. There were 
1,400 when you came in to office; now, there are 
significantly--almost to a 100. Sadly, in Afghanistan, you are 
placing more troops because there has been an increase to 
nearly 200 attacks a week. But I believe that you are placing 
the troops where they are needed.
    In terms of training, I know what can be been done with the 
Afghan forces. My former National Guard unit, the 218th Brigade 
of South Carolina led by General Bob Livingston, worked with 
the Afghan police and army units. They developed a close 
relationship with their Afghan brothers, and they saw the 
capabilities of the Afghan Security Forces.
    With that in mind, I understand that the training program 
for the Afghan National Police is being transferred from the 
State Department to the Department of Defense, which will 
involve a transition on the ground. How confident are you that 
the training program will not be disrupted? Does this transfer 
put the mission of the Afghan Security Forces at risk?
    Secretary Gates. No, I don't think it does. And I think 
that, as Admiral Mullen has testified and I would invite him to 
comment, we have put new people in, in all of these training 
programs.
    But the reality is, both with the police and the army, that 
working together and partnering is the key to their 
effectiveness. They can go through basic training, but what we 
found in Iraq and what General McChrystal is intending to do in 
Afghanistan is, once those people get out of basic training, 
once those units show up, that they will live together, work 
together, plan together.
    That hasn't happened before, and that is how you build 
trust between these people. But it also is the way you give 
them competence and confidence. And we saw it in Iraq, and that 
is certainly General McChrystal's approach on all the security 
services on the Afghan side.
    Mr. Wilson. And actually, I have seen it myself in visiting 
in Kabul--I have been there nine times. Visiting with the 218th 
Brigade, it was always extraordinarily encouraging to me that 
they were not just at Camp Phoenix; they were spread throughout 
the country in a mentoring program. And it is and can and shall 
be successful. And I want to thank you for your service. All of 
you. And I just appreciate your efforts to protect American 
families by defeating the terrorists overseas.
    And I yield the balance of my time.
    The Chairman. I thank the gentleman.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you to all of you for being here. We certainly 
appreciate, I certainly appreciate the deliberate process that 
you have used. And I know that it has been difficult. It is 
difficult for us, too. I feel quite conflicted around this.
    Could you help us understand how you won over some of your 
own skepticism and others in looking at a few issues? And I 
guess I have a--Pakistan, for example. We have made the 
assumption that adding 30,000 troops in Afghanistan and 
partnering with a new, hopefully more, Afghanis in the services 
and in the law enforcement will make and help stabilize 
Pakistan. And yet, we read in the press and we know that in 
many ways there will be a flow of Taliban likely into Pakistan. 
How does that help to stabilize Pakistan?
    I think the other assumption that is being made is that we 
will be able to recruit the number of Afghanis that are 
required through their tribal leaders. And I am wondering, 
where do we see that happening in such numbers that you have 
the confidence to believe that that is the case? I haven't seen 
that indication.
    And then I think, finally, the whole issue in terms of the 
civilian, quote, surge that we have talked about, and yet I 
think, Secretary Gates, particularly you said that, I mean, 
that is going to be years before we really have the kind of a 
force that is required to do that. And I am wondering, are 
there plans already to have the civilians partnering and 
training with our military that are going over there together?
    And then, finally, are we focusing largely on our reserves 
and our National Guard as well as our active duty troops that 
will be deployed to Afghanistan?
    Secretary Lew. If I could start with the civilian question 
that you asked. Secretary Gates' comments about the long-term 
need to rebuild USAID and State, we all believe that.
    But notwithstanding that, there is a very large effort 
under way to get civilians to Afghanistan. We are tripling the 
number of civilians in place. By early next year, we will have 
almost 1,000 people on the ground. They are leveraged ten to 
one because local nationals are hired either directly or 
through contract or non-governmental organization (NGO) 
arrangements. So that is a fairly substantial number of people. 
You are talking about 10,000 civilians. Civilians don't come in 
battalions; they come in ones and twos. You have a half a dozen 
civilians in a district, and they are able to--U.S. civilians--
and they can organize an awful lot of activities. They can 
handle the disbursement of monies. They are on the ground, and 
they can deal with some of these corruption issues because they 
are there to supervise the way the monies are being given out 
in terms of the projects being funded.
    This is very hard work. I wouldn't sit here today and say 
that it is going to be easy to get enough civilians in to do 
all the work that we have to do in Afghanistan. But we are 
getting the numbers there with the specialization that we need, 
with agriculture specialization, with rule of law 
specialization, for each of the functions that are identified 
by military and civilian planners working together.
    Mrs. Davis. And just, do they have the staying power? How 
long are they required to stay? And when will you know that 
perhaps you are not going to have those?
    Secretary Lew. When we started at the beginning of the 
year, there were just over 300 people, most of whom had 
commitments that were less than a year, three months, six 
months. We are bringing a thousand people in, the vast majority 
of who are making the commitment of a year or more. That is a 
very big difference and a very important difference and one of 
the major changes that we have had made.
    Mrs. Davis. Thank you.
    Admiral Mullen. Let me first quickly piggyback on Secretary 
Lew. He would never say this, but I have watched him work this 
problem over the last many months, and he personally and his 
people have had a huge impact on getting the right skilled 
people there; not just a body, which is a problem we had in 
Iraq, but the right skilled people into the right job.
    And the multiplier is just huge. Because I was with the 
Marines right after they went into Helmand, and the one 
civilian that rolled in with them literally the next day had a 
huge immediate impact. And so the leverage that he talks about 
just, you can't say enough about that. And I really appreciate 
that effort.
    With respect to Pakistan, an awful lot of work going on 
with Kayani and the Pakistani Military (PAKMIL). Kayani--and I 
give General Dave McKiernan credit for this. He started, we 
started this tripartite, Afghan, Pakistan, as well as ISAF U.S. 
meet, that continues, and General McChrystal has met with 
General Kayani several times. We are working to synchronize the 
campaign, if you will, so that we don't have the kind of 
impact. We sent the Marines into Helmand. Not that many 
insurgents went back across the border.
    And then, lastly, just very quickly, we recognize the 
recruiting, retaining and retention problems that we have on 
the ANSF. And not unlike we have to incentivize that, we also 
have to create a security environment in which they can be 
recruited, trained, and sustain that environment over time.
    Mrs. Davis. Thank you.
    The Chairman. I thank the gentlewoman.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Secretary, I appreciate all of you for being here 
today. I think one of the things you can tell is that members 
of this committee are struggling, and they are struggling 
because they are hearing a lot of things that are contrary to 
policies that we have heard before. You, yourself, had said 
that in the past you were adamantly opposed to deadlines, and 
yet today we are dealing with a July 2011 deadline that, 
Admiral, you said: By then, we will know whether or not we are 
succeeding or not by that date. We will know whether or not we 
are succeeding by that date.
    But there is no trigger with respect to the date. It 
doesn't matter when you get to that date how you are doing. 
There has been a date set for drawdown. This is not a date for 
assessment. This is not a date to determine whether or not this 
strategy that you are currently implementing is something that 
needs to be changed. This is the beginning of a drawdown.
    Now, Secretary Gates, you tell us, well, but it is how the 
drawdown is done that will be the evaluation. But nonetheless, 
it is a date where we are saying, July 2011, whether or not we 
are succeeding, as you have said, Admiral, that we are going to 
begin to draw down.
    And I am really troubled, Mr. Secretary, by your statement 
of, for over the past eight years, we haven't exerted enough 
leverage. And you acknowledge that three of those eight are 
your own. And I am not comfortable with your conclusion that 
setting that date, which is an arbitrary date of July 2011, is 
going to provide you with that leverage.
    And you turn to us and you said, well, you know, I think 
that the American people want to know that there is going to be 
an end, having eight years of this. Mr. Secretary, I think what 
the people want to know is, are we going to be safe? I mean, 
the reason why we are in Afghanistan is because we were 
attacked on 9/11, and we lost the World Trade Center from 
perpetrators that originated from Afghanistan. This isn't an 
issue of whether or not we want an end. It is how we want an 
end.
    And that is really what I was looking for today, was some 
answers as to how we are going to get that end, not an 
arbitrary deadline. And what concerns me, again, with arbitrary 
deadlines, I mean, you look to Guantanamo. This is an 
administration that said, we are closing Guantanamo in 12 
months, which is something I opposed. But now we are going to 
be drawing down from Afghanistan in 18? We couldn't accomplish 
closing Guantanamo, where there are a handful of terrorists and 
we have complete control, but in Afghanistan, where there 
certainly is an innumerable amount, and we are going to begin a 
drawdown in 18 months.
    Now, Admiral, you said that--I believe I got this right--
that the Taliban are making more than the Afghan army. Several 
members have asked you questions about the drug trade, and I 
have a chart I want to hold up, Mr. Secretary.
    This is looking at the drug trade from 1995 to 2009. I 
think this is important for us to look at, because every time 
we take up the issue of, what are we going to do, how is the 
Taliban being funded, how is al Qaeda being funded, and we talk 
about the drug trade, it should not be an issue of this 
esoteric concept of drug trade. It is actually the increase 
from the drug trade.
    Now, this chart goes from 1995 to 2009. I am going to fold 
it back so that we look at the highest numbers going away since 
1995. And what do we find? We find the last four years being an 
astronomical amount that is off the charts with respect to what 
has occurred in Afghanistan before. Three of those four, Mr. 
Secretary, as you just said, are the time periods where you 
have served as Secretary of Defense.
    Now, we all know that the Afghan National Army is competing 
against the Taliban, from which this funding is coming from. 
Now, I, like other members of this committee, I am a member of 
the NATO Parliamentary Assembly (NATO PA). And in their last 
meeting, they had a resolution that was brought up with respect 
to addressing the drug trade, and actually, the Russians came 
forward with a resolution calling on NATO and the NATO PA as a 
policy perspective to address the issue of the drug-related 
illegal activities. There were members of parliament from NATO 
who said that it wasn't NATO's responsibility to address the 
drug trade.
    Now, again, we know that there has been in the last four 
years an astronomical increase, and we know that it is funding 
what we are fighting. I would hope that your strategy includes 
addressing this issue. And perhaps you could give us some 
information today that would give us confidence that this, 
which is funding what we are fighting, might be something that 
you can address.
    Secretary Gates. You are correct about the reluctance of 
other ISAF nations to tackle this problem. I would tell you 
that NATO's policy on this, the ISAF policy, to which the 
governments have acceded--I wouldn't say they supported 
enthusiastically. But the ISAF rules of engagement in terms of 
going after drug traffickers, drug lords, and the drug labs was 
changed about a year ago. And so ISAF, the commander of ISAF 
now can deploy forces and engage forces in trying to deal with 
these groups.
    The Chairman. I thank the gentleman.
    Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman.
    Admiral Mullen in his testimony says that South Asia is the 
epicenter of global Islamic terrorism. And I think this 
decision will have tremors well beyond that epicenter. My 
friend from Ohio just mentioned Guantanamo. I would want to ask 
Admiral Mullen and Secretary Gates if they would still stand by 
their earlier statements, which I believe are correct, that 
closing Guantanamo removes a symbol that is a valuable 
recruitment device for the jihadists whom we are fighting; 
would you still agree with that?
    Secretary Gates. Yes, I do.
    Admiral Mullen. I said that in 2005, and I believe it 
today.
    Mr. Andrews. And so the relationship of the Guantanamo 
question to this one is it makes it more difficult for those 
whom we are fighting in Afghanistan otherwise to recruit those 
to fight against us.
    I wanted to ask you about Pakistan and the tremors that it 
involves in relationship to this. If we are successful in this 
military mission in substantially degrading al Qaeda and the 
Taliban in and near the Afghan-Pakistani border, what impact do 
either of you think or any of you think that that would have on 
the stability of the Pakistani government?
    Admiral Mullen. I think it would have a significant impact. 
I think the Pakistani government and the Pakistani people pay 
an awful lot of attention to their neighbors, and their 
strategy is designed around what kind of governments and what 
kinds of threats they have next door. So I think a stable, 
supportive Afghanistan would have a significant impact on how 
Pakistan would look at its future. And I think the opposite is 
true as well.
    Mr. Andrews. To what extent is the rising tide of terrorist 
violence against civilians in Pakistan attributable to the 
resurgent Taliban?
    Secretary Gates. I would say that it is a result of the 
growth in the last year to 18 months of the Tehrik-i-Taliban 
Pakistan, the TTP, the Taliban in Pakistan, or the Pakistani 
Taliban, I should say. We have evidence that al Qaeda is 
helping them pick targets, do operational planning, helping 
them in their effort to try to destabilize the Pakistani 
government.
    The other piece of this that does not include the Taliban 
or that is apart from the Taliban is we also know that al Qaeda 
is helping the Lashkar-e-Taiba, the terrorist group that 
carried out the bombings in Mumbai. Al Qaeda sees using the 
Taliban in Pakistan and groups like LET as ways to destabilize 
Pakistan and even try to provoke a conflict between India and 
Pakistan that would inevitably destabilize Pakistan. So this is 
all tied together.
    Mr. Andrews. I think Admiral Mullen implicitly answered 
this question. But if the opposite were true, if we were either 
to fail in this offensive mission against the Taliban and al 
Qaeda in Afghanistan or not embark upon it, what would the 
impact then be on the stability of the Pakistani government, in 
your opinion?
    Secretary Gates. Well, let me comment and then just ask 
Admiral Mullen. First of all, we have seen what happens. When 
the Pakistanis made deals with the tribes and various groups on 
its northwestern frontier, it created a sanctuary and safe 
haven in which Taliban, which had been knocked back on its 
heels and nearly destroyed in 2001-2002, had the space in which 
it could reconstitute itself to the point where it could become 
a major problem for the United States and a number of our 
allies.
    If, given the same kind of space in eastern Afghanistan and 
southern Afghanistan, the TTP in Pakistan could use it to 
strengthen itself and expand its ranks and be even more 
effective in its efforts to destabilize the government.
    Admiral Mullen. I have spent a lot of time in Pakistan, and 
each time I go, I learn how much I still have to learn. And one 
of the messages that comes from there is a message of lack of 
trust. And that is based on not just what happened in 1989 but 
in fact what happened as early as the 1960s. They recall we 
have betrayed them three times. The question is, are we going 
to do that again?
    Mr. Andrews. I certainly hope not.
    Admiral Mullen. And I think the worst case is that that 
government does get destabilized; they are nuclear capable.
    Mr. Andrews. If we may, we certainly I think have a 
consensus that we don't want a nuclear weapon Iran. If, God 
forbid, we had one, what is the greater threat to the United 
States, a nuclear weapon Iran or a nuclear weapon Pakistan 
under a jihadist government?
    Admiral Mullen. I think they are both pretty, I mean, 
dramatic threats to us and to other nations in the world.
    Mr. Andrews. Thank you.
    The Chairman. I thank the gentleman.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here and for your service.
    Admiral Mullen, in response to a couple of questions, you 
have affirmed that the 30,000 troops is what General McChrystal 
wanted for 2010. I guess we don't know what he wanted in total, 
and perhaps when we see him next week, we can see what that 
total number is, unless you can tell us what his total request 
was. But, in the meantime, we have 30,000 that we are looking 
at.
    Can you help us understand what the makeup of that 30,000 
is? How many combat brigades? How many people will be trainers? 
What kind of enablers are going with it? And particularly, 
because you have already talked about the stress on enablers 
and the difficulty of moving some from Iraq to Afghanistan and 
their quick turnaround, can you give us some idea of the makeup 
of that 30,000? Is the strategy complete enough for that?
    Admiral Mullen. Actually, with the decision as recent as it 
is, the details out through the 30,000, the further you get to 
the right in the timetable, we have got some more precise work 
to do. But up front, it is clearly a regimental combat team 
from the Marine Corps specifically that would be at the front 
end of this. There is also a package in there similar to the 
Fourth, B-82nd that is a training brigade. So focused 
exclusively on training, although in a combat environment, and 
this goes to the partnership piece, we have got one we sent in; 
we are going to send another.
    With respect to the enablers, we are looking at other 
brigade combat teams. And, actually, one of the things that the 
President gave General McChrystal was the flexibility to put 
together the forces as he best sees fit. And so we are working 
with him now to really look at the details of that, and we just 
don't have that at this particular point in time. I would 
expect certainly at least one more brigade combat team, if not 
a second one. Everybody has got a training mission and a 
partnering mission as they go in.
    And then we are very concerned about the enablers, the 
kinds of things the Secretary talked about earlier, those that 
protect our people. It's medical. It's ISR. It is helicopters, 
engineers, improvised explosive device (IED) related. And we 
are focused--we have been focused on that for many, many months 
now to do two things: One, make sure we can get as many of them 
there as possible, and they are a significant part of the 
30,000. And it is not just having them in the 30,000; it is, 
where do we get them, to your point, Mr. Kline, because they 
have been turning pretty quickly. And we are very aware of that 
as we look at their turnaround ratios.
    But all of it--I believe all of it is doable in terms of 
what he needs, what he has asked for, what he needs and our 
ability to get them there, particularly over the next six, 
eight, six to eight months.
    Mr. Kline. Admiral, I am a little bit concerned that we 
don't have more clarity into what the makeup of this would be, 
because we have set on 30,000, but I don't know how we got the 
30,000 if we don't know how many of those are going to be 
combat teams and how many of those are going to be enablers. It 
seems to me that that 30,000--I hate to use the word arbitrary 
again, but I don't understand how we know what that number is 
if we don't know what the makeup is going to be.
    Admiral Mullen. It is not arbitrary. And I would only 
repeat, since that word keeps coming up, that July 2011 is not 
an arbitrary date, either. I mean, we certainly have a broad 
view of what this should be. The closer that they will deploy, 
the more specific it is. General McChrystal has some 
flexibility that is tied to that, and we are working the 
details of how those packages get put together.
    Broadly, they are brigade combat teams. They are enablers. 
They are trainers. They are the kinds of things that we know we 
will typically need. It becomes a question of identifying them, 
making sure they are available, and then literally putting 
ourselves in a position to be able to deploy them in a timely 
way.
    Mr. Kline. All right. Admiral, we will be looking forward, 
I am sure, in this committee to those details, and of course, 
we are anxiously awaiting General McChrystal's arrival to 
testify here. I am very concerned about those enablers. I am 
very interested to see what kind of medical support we are 
going to have for this, how much increase there is going to be. 
Are we going to build a hospital? There are a number of issues 
in terms of the force makeup that I am really looking forward 
to getting details on, and I know that other members of the 
committee are.
    Just one other point. I think my colleague from Florida 
asked why the President didn't use the word ``victory.'' And, 
as you said, you didn't write the speech. Are we looking for 
victory in Afghanistan?
    Admiral Mullen. And I, certainly in our discussions--and we 
believe that this strategy is a strategy that will allow us to 
succeed.
    Mr. Kline. Is that victory?
    Admiral Mullen. And that is to allow us to succeed. To get 
us to a level where we can turn this over to the Afghans.
    The Chairman. I thank the gentleman.
    Before I call on Mr. Langevin, let me make an observation. 
In both Iraq as well as in Afghanistan, we have Navy and Air 
Force personnel doing virtually Army type of work, is that not 
correct?
    Secretary Gates. Correct. Some of these enablers, very 
important enablers, are from the Navy and the Air Force.
    The Chairman. Well, is that part of the 30,000?
    Secretary Gates. I don't know the answer to that.
    Admiral Mullen. Well, I mean, I don't know specifics, but, 
certainly, I think it would be. They have been a significant 
part of what we have done in Iraq and Afghanistan and will 
continue to be.
    Secretary Gates. And, particularly, I would say the Air 
Force, in terms of the intelligence, surveillance and 
reconnaissance.
    The Chairman. Thank you very much.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Gentleman, I want to thank you for being here, for your 
testimony. I know you have had a busy week, but we are 
certainly appreciative to have you here today to clarify some 
of the issues surrounding the President's decision to increase 
troop levels in Afghanistan.
    We all recognize, obviously, that there are serious 
security challenges ahead, both in Afghanistan and Pakistan. 
And I am certainly glad that the President's new strategy was 
really developed after thorough deliberation and careful 
assessment of the conditions on the ground.
    And, while the President has answered many of the questions 
on Tuesday night, there obviously are many that remain, some of 
which are going to require time and patience and others that 
are going to require deeper investigation and continued 
oversight by Congress as the war moves on.
    I am struggling with a few things. As the President 
discussed in his speech, with the domestic challenges that we 
face at home, we simply can't commit our armed forces to a 
prolonged and costly attempt at nation-building. And, in terms 
of where we are right now and the way forward, I am struggling 
with a couple of things. One centers around the footprint; the 
other is the counterinsurgency versus counterterrorism 
strategy.
    You know, clearly, the Taliban--and, Secretary, I probably 
am now where you were, and I haven't heard a whole lot to 
really convince me or move me yet. But, clearly, the Taliban 
are not over-

whelming us with their numbers or their firepower, but yet they 
have been able to increase their influence significantly in 
Afghanistan.
    And I need to drill down more on that. Because what I see 
is that, as our troop levels have increased, we have been seen 
more by the Afghan people, perhaps, as occupiers. And that is 
the real nexus which has allowed the Taliban to increase their 
influence. So I need to have you drill down more on that and 
explain that a little more, in terms of how you got to where 
you are.
    And on the counterinsurgency/counterterrorism strategy, 
after having reviewed the available options, I would like to 
hear a little more about what the President felt could be 
gained strategically from a counterinsurgency approach that 
couldn't be obtained by following a more counterterrorism-
focused effort.
    Secretary Gates. First of all, in terms of the footprint, 
the first point that General McChrystal made to me when I 
raised this concern is that it is not so much the number as 
what those troops do. And I think this also ties in with issues 
relating to civilian casualties. It ties in to the heretofore 
largely absent partnering with the Afghans, so that when we 
would go into a village, the person knocking on the door, or 
knocking the door down, was an Afghan and not an American.
    These are all things that General McChrystal has changed, 
in terms of how he is going to use the forces he has been 
given, the ones that are already there and the ones that are 
coming in. And if the Afghans are truly partnered with us, as 
is his intention, the civilian casualties are dramatically 
reduced since he issued new orders on this, and that is having 
a difference.
    The reality is, in part, the reason that the Taliban have 
been successful is that they are so ruthless and they 
intimidate a lot of people. As we have said several times, this 
has long been an under-resourced effort on our part, and we 
haven't had the troops or the partnership with the Afghans to 
give Afghans in villages and rural areas, where most of the 
people live, the confidence that when they get a night letter 
saying, if you cooperate with ISAF or the Afghan Government, 
you will be killed and your entire family will be killed.
    So the key to getting the Afghans who are hedging because 
they are not sure who is going to win is to give them the 
confidence that what we are trying to do is the winning side. 
But our behavior, the behavior of our troops, the way we use 
those troops, and the way we partner with the Afghans, I think, 
have a huge amount to do with this reducing-the-footprint 
issue.
    The other side of it is, I think this is an area where 
people misuse history. The Soviets did get defeated in 
Afghanistan, but it is important to remember that they were 
trying to impose an alien culture and political system on the 
country. They murdered about one million Afghans. They made 
five million more into refugees. And they were virtually 
isolated internationally in that effort. None of those 
conditions apply to what we are trying to do in Afghanistan and 
where we are.
    And with respect, very quickly, to counterinsurgency (COIN) 
and counterintelligence (CI), the reality is you cannot do--
counterterrorism, rather--you cannot do effective 
counterterrorism unless you have a presence on the ground and 
are able to collect intelligence that informs your targeting. 
And the only way you can do that is to provide some minimum 
level of security for the population so that you can operate 
there.
    So this is not a fully resourced COIN in the original 
sense. We have tried to narrow and refine the mission so there 
are major aspects of COIN associated with this but also major 
aspects of counterterrorism and, I would say, having forces 
also outside the protected areas, where we are protecting the 
population that are, in fact, out and about, disrupting the 
Taliban and making them feel very uncomfortable.
    The Chairman. I thank the gentleman.
    We have time for one question from Mr. Rogers, and then the 
witnesses will turn to pumpkins.
    Mr. Rogers. Great. Thank you, Mr. Chairman.
    My question deals with metrics. Mr. Secretary, you talked 
about transferring authority over, starting the process in July 
of 2011. And, in August of this year, you talked about 
beginning the process of building these metrics by which we are 
going to measure success over there.
    Can you tell me where that process is now?
    Secretary Gates. Well, we have a very detailed set of 
metrics that I think have been shared with the Congress that 
came out of the March endeavor. We have tried to narrow those 
and make them more precise in terms of our expectations of the 
Afghans, our expectations of the Pakistanis and of ourselves 
and our allies. And those have been worked in the interagency, 
and I will go back and see if we cannot provide those to the 
Congress.
    Mr. Rogers. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Mr. Shuster. Mr. Chairman, I don't have a question, but if 
I could just reread back something, I think the most important 
point made by the Secretary, if I could just reread it again?
    The Chairman. Without objection.
    Mr. Shuster. Mr. Secretary, you said here today--I think 
this is the most important point today in the whole process. 
And you said, ``This part of the world represents the epicenter 
of extremist jihadism, the historic place where native and 
foreign Muslims defeated one superpower and, in their view, 
caused collapse at home. For them to be seen to defeat the sole 
remaining superpower in the same place would have severe 
consequences for the United States and the world.''
    I think that is the point we all need to remember as we go 
forward here, and I appreciate your saying that.
    The Chairman. Thank you very much.
    Let me first compliment and thank the members of the 
committee for staying within the time limits for questions.
    And a special thanks to the witnesses for being with us. It 
has been very, very helpful. We wish you success in this most 
difficult endeavor. We couldn't have a better team, couldn't 
have a better team. And we know that, and you have our 
confidence.
    Without objection, Members have five legislative days to 
submit their statements into the record.
    And, with that, gentlemen, thank you.
    [Whereupon, at 4:34 p.m., the committee was adjourned.]


=======================================================================



                            A P P E N D I X

                            December 3, 2009

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            December 3, 2009

=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            December 3, 2009

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. JONES

    Mr. Jones. Mr. Secretary, Admiral Mullen, I have this second 
question. Again, I like many on this committee, maybe all on this 
committee, worry about the stress on the force and how many times we 
can continue to ask these brave men and women to keep going back and 
back. And I do want to thank you, Mr. Secretary, and Admiral Mullen, 
for taking the time you did to try to figure out what is the right 
policy for Afghanistan. The question is, of the 30,000 that will be 
going to Afghanistan, how many of the 30,000 can you give us, if not 
today, maybe to the committee, the number of deployments that each one 
of the 30,000 have been on? Do you know now how many deployments the 
30,000 have been on? Has it been half the 30,000 have not been to 
Afghanistan or Iraq and the other half a number of times? Can you 
answer that, or would you like to submit that to the committee?
    Admiral Mullen. Mr. Jones, let me take a shot at it. I can't give 
you a complete answer, but I think it is an important question. On the 
Marine Corps side, I think nobody knows this better than you, we have 
rotated basically every 7 months with respect to deployments. And the 
expectation is, for the major units, that will continue in the Marine 
Corps even as we shift from--as we have shifted from Iraq to 
Afghanistan. What I can't tell you is, for these units--there are sort 
of two measures--for these units, how many deployments this unit, a 
unit, has been on. And then, in that, how many deployments on average 
have the individuals in that unit seen? And that is what I would need 
to get back to you for.
    Total Service--The Military Services have not yet identified all of 
the 30,000 Service Members as support for the plus-up. The remaining 
Soldiers, Airmen, Sailors, and Marines will continue to be sourced as 
requirements are finalized and the full sourcing process is completed. 
As of 27 Jan 10, 26,470 of the 30,000 have been identified.
    Of the people we have identified and can track their deployments 
(Army, Air Force, Marine Corps), 14% have deployed 3 or more times to 
Afghanistan or Iraq. 40% have not deployed to Afghanistan/Iraq; this 
would be their first deployment to one of these locations.
    Army--The Army has identified 16,186 Soldiers as support for the 
plus-up.
    Of that number, 10,627 have participated in one or more 
deployments:

                                                      Army
----------------------------------------------------------------------------------------------------------------
                                                                                                  3 or more
    Afghanistan/Iraq          0 Deployments         1 Deployment          2 Deployments          Deployments
----------------------------------------------------------------------------------------------------------------
                          5,559                 6,010                 3,150                 1,467
----------------------------------------------------------------------------------------------------------------

    Air Force--The Air Force has identified 393 Airmen as support for 
the plus-up.
    Of the 393 Airmen 144 participated in one or more deployments:

                                                    Air Force
----------------------------------------------------------------------------------------------------------------
                                                                                                  3 or more
    Afghanistan/Iraq          0 Deployments         1 Deployment          2 Deployments          Deployments
----------------------------------------------------------------------------------------------------------------
                          249                   100                   32                    12
----------------------------------------------------------------------------------------------------------------

    Navy--The Navy has identified 1,391 Sailors as support for the 
plus-up.
    Navy is unable to provide requested data on individual OIF/OEF 
deployment history. The Navy does not have a corporate-level system in 
place to effectively track and report repeat deployments to a specific 
named operation.
    Marine Corps--The Marine Corps has identified 8,500 Marines as 
support for the plus-up.
    Of that number, 3,995 Marines have participated in one or more 
deployments:

                                                     Marines
----------------------------------------------------------------------------------------------------------------
                                                                                                  3 or more
    Afghanistan/Iraq          0 Deployments         1 Deployment          2 Deployments          Deployments
----------------------------------------------------------------------------------------------------------------
                          4,505                 2,635                 1,020                 340
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SMITH
    Mr. Jones. In your prepared testimony you stated: ``General 
McChrystal intends to use these additional U.S. troops to conduct more 
focused counterinsurgency operations that enhance population security 
against the Taliban in south and east Afghanistan. As in Iraq, our 
troops will live among the population. Thus--and as General McChrystal 
has successfully emphasized since his arrival as COMISAF last June--we 
will continue to make every effort to eliminate civilian casualties, 
not just because this is the right thing to do, but because these 
casualties work against our goal of Afghan population security. 
Although we must expect higher Alliance casualties in coming months as 
we dedicate more U.S. forces to protect the population and mentor the 
ANSF, our extended security presence must--and will--improve security 
for the Afghan people and limit both future civilian and military 
casualties.'' How do you envision limiting civilian and military 
casualties? Can this be accomplished solely by a change in tactics? Or 
can technology assist us in achieving this?
    Admiral Mullen. With regards to limiting civilian casualties, the 
Tactical Directive issued in July 2009 states:
    `` . . . I expect leaders at all levels to scrutinize and limit the 
use of force like close air support (CAS) against residential compounds 
and other locations likely to produce civilian casualties in accordance 
with this guidance. Commanders must weigh the gain of using CAS against 
the cost of civilian casualties, which in the long run make mission 
success more difficult and turn the Afghan people against us.
     . . . The use of air-to-ground munitions and indirect fires 
against residential compounds is only authorized under very limited and 
prescribed conditions.''
    The above quotes deal directly with ROE and troops using CAS in 
self-defense. The Tactical Directive does not prevent troops from 
protecting themselves as a matter of self-defense but makes them 
determine whether CAS is the only option available to them.
    Limiting civilian casualties cannot be limited by changes in 
tactics or technology as separate entities. The changes in tactics are 
addressed in the Tactical Directive. Technology enhances the ability of 
the troops to determine appropriate levels of force and identification 
of hostile forces before engaging, thereby limiting the possibility of 
inadvertent civilian casualties.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. I have concerns that the Administration approached the 
Afghanistan situation without putting the most robust effort forward. 
We have heard in the media report of low-, medium-, and high-risk 
recommendations. 1) Did General McChrystal request 30k? 2) Who provided 
that number to the President? 3) Based on all the options that were 
presented to the President, was that his lowest risk/highest chance of 
success option? 4) Are 30,000 forces enough to win decisively? Please 
describe those risks that this President is willing to take by going 
with a force package of 30k.
    Secretary Gates and Admiral Mullen. The initial resource request 
remains a classified document, so we are unable to go into complete 
detail. However, we can cover the process undertaken by General 
McChrystal.
    Once his initial assessment was complete, he developed a classified 
resource analysis. In that analysis, he identified different force 
packages with associated risks based upon his assessment. Following 
this process, a direct recommendation was submitted through the chain 
of command to the President.
    The commitment of 30,000 additional U.S. forces, along with 
additional coalition forces and growing Afghan national security force 
numbers, is a significant step toward expanding security in critical 
areas and in demonstrating resolve. The President's force package 
provides U.S. forces as quickly as possible, giving General McChrystal 
the combat power he needs in 2010 to gain the initiative. In addition, 
our Allies and partners have committed to more than 7,000 additional 
forces through the NATO/ISAF Force Generation Process.
    The President's decision rapidly resources our strategy, 
recognizing that the next 18 months will likely be decisive and 
ultimately enable success. Rolling back the Taliban is a prerequisite 
to the ultimate defeat of al Qaeda. The mission is not only important; 
it is also achievable. We can and will accomplish this mission.
                                 ______
                                 
              QUESTIONS SUBMITTED BY MRS. MCMORRIS RODGERS
    Mrs. McMorris Rodgers. It should be in our country's best strategic 
interest to protect Pakistan from al Qaeda. Reports indicate that these 
terrorists might be receiving money from members of the Pakistani 
Directorate for Inter-Services Intelligence (ISI). Our country and the 
world cannot afford to have Pakistan taken over by terrorists due to 
its nuclear capabilities. What are we doing to protect the strategic 
interest in Pakistan? Will Pakistan fall if Afghanistan falls?
    Secretary Gates. The core goal of the President's strategy is to 
disrupt, dismantle, and eventually defeat al Qaeda in both Afghanistan 
and Pakistan and to prevent their return to both countries. This 
strategy also recognizes that the security situation in Pakistan is 
inextricably linked to that of Afghanistan. Pakistan's security, 
especially along its Western border, cannot be separated from 
developments in Afghanistan.
    Taliban sanctuaries in the south and east of the country would be 
profoundly disruptive to Pakistan, especially if the Taliban-ruled 
areas become a staging area for resurgent military groups to attack 
Pakistan. By deploying an additional 30,000 U.S. troops to Afghanistan, 
the President's strategy aims to deny such sanctuaries by degrading the 
Taliban's momentum and denying the Taliban the ability to overthrow the 
Afghan government.
    Another key part of the current strategy is reinforcing Pakistan's 
understanding that active opposition to extremist groups within its own 
borders is essential to its strategic interests. Recent military 
operations in South Waziristan, Swat, and other areas of Pakistan 
reflect Pakistan's increasing recognition of the extremist threat. We 
work closely with Pakistan on a range of counterterrorism and 
counterinsurgency efforts, with a focus on strengthening its 
capabilities as it seeks to root out extremists in border areas and 
interdict terrorist attacks in settled areas. We also provide 
substantial resources--$1.5 billion annually for the next five years 
through the Enhanced Partnership with Pakistan Act of 2009 (the Kerry-
Lugar legislation) for example--to enhance Pakistan's democratic 
institutions and encourage prosperity among the broader populace.
    Mrs. McMorris Rodgers. The stability and security of Pakistan 
depends on the success in Afghanistan. Moreover, with the tensions high 
in India, the region is ripe for chaos. How does the President's 
strategy affect our relationship with Pakistan and India? Will this 
enhance stability?
    Secretary Gates. As you note, the outcome of our efforts in 
Afghanistan and Pakistan have serious implications for the entire 
region. The President's strategy aims to address the challenges we face 
on both sides of the border, because we cannot allow violent extremists 
to gain access to the very same safe havens they used before 2001. Al 
Qaeda continues to use extremist groups as a way to destabilize 
Pakistan and attempt to provoke a conflict between Pakistan and India 
that would inevitably destabilize the entire region. This is why the 
President is committed to long-term strategic partnerships with both 
Pakistan and India that benefit both parties. We recognize that long-
term regional stability will be unattainable without a solution that 
involves both nations.
    The President's new strategy recognizes the importance of a 
comprehensive approach to regional problems. This approach seeks to 
mitigate external interference in Afghanistan and works to encourage 
neighboring countries to shift their efforts from competition for 
influence to cooperation and economic integration. We have an array of 
programs that aim to achieve these goals through building and 
strengthening our relationships with regional actors. Ultimately, we 
will work diligently to encourage stability in the region, because 
doing so is fundamental to our national security.
    Mrs. McMorris Rodgers. There are terrorists harboring in the 
northwest part of Pakistan. These Al Qaida members are slowly taking 
over this area. What are we doing to not have these terrorists take 
over the entire country?
    Secretary Gates. As President Obama stated repeatedly, our goal is 
to disrupt, dismantle, and defeat al Qaeda. In recent months, the 
Pakistani military has made significant efforts to address the 
extremist threat within its borders. We must encourage and aid 
Pakistan's fight against the extremists in South Waziristan and Swat, 
and across the Federally Administered Tribal Areas (FATA). 
Additionally, we must help Pakistan begin to expand its objectives to 
include seeking out and eliminating all forms of violent extremism and 
terrorism--those who threaten not only Pakistan, but also Afghanistan, 
the wider South Asia region, and the world.
    The U.S. withdrawal from the region in the early 1990s, followed by 
a severing of military-to-military relations as a result of Pakistan's 
test of a nuclear weapon, contributes to Pakistan's skepticism that the 
United States is not a reliable, long-term strategic partner. We are 
deepening ties with the people of Pakistan, as well as with their 
security forces, in order to overcome this ``trust deficit.'' Our 
security assistance programs, such as the Pakistan Counterinsurgency 
Fund and the symbolically and tactically important F-16 program, are 
vitally important to this effort. We also provide substantial 
resources--$1.5 billion annually for the next five years through the 
Enhanced Partnership with Pakistan Act of 2009 (the Kerry-Lugar 
legislation) for example--to enhance Pakistan's democratic institutions 
and encourage prosperity among the broader populace. We must continue 
to make efforts to show that we view our long-term relationship with 
Pakistan as vital to our national security interests and to ensure 
Pakistan has the capability to defeat terrorists and insurgents.
    Mrs. McMorris Rodgers. What role will the NATO forces play in this 
surge? What are you doing to get commitments from our NATO allies? What 
commitments have you already received? What limitations do you see NATO 
coming up with (where they will fight and how)?
    Secretary Gates. NATO will play the same role that U.S. forces will 
play--to secure the country and train the Afghan National Security 
Forces (ANSF) in preparation for the eventual assumption of 
responsibility by the Afghans themselves. We are working with NATO 
Brussels to reach out actively to all Allies and partners to seek to 
meet all requirements, and we are hopeful that contributing nations 
will announce their commitments at the upcoming International Security 
Assistance Force (ISAF) Force Generation Conference on December 7, 
2009, the London Conference on January 28, 2010, and the NATO Defense 
Ministers meeting in Istanbul on February 4, 2010. Since we just 
recently announced our Afghan strategy, we are working within NATO 
channels to secure commitments. Although some NATO nations do place 
limitations on national contributions, many do not. We are working with 
our Allies and other troop-contributing nations to seek the greatest 
flexibility possible in ISAF forces for General McChrystal's 
(COMISAF's) command and control.
    Mrs. McMorris Rodgers. Are we thinking of a plan to send more 
American troops if other countries do not live up to the President's 
request?
    Secretary Gates. The President authorized 30,000 additional forces, 
in addition to granting me a modest amount of flexibility for an 
additional 10 percent. We will continue to assess conditions as we move 
forward.
    The President has already welcomed the announcements of U.S. Allies 
and partners to increase substantially troop and training contributions 
to Afghanistan in 2010; approximately 7,000 additional forces through 
the NATO/International Security Assistance Force (ISAF) Force 
Generation Process, with more likely to come in tandem with the London 
Conference on January 28. These new commitments demonstrate strong 
support for the President's decision on Afghanistan and Pakistan and 
the firm resolve of NATO Allies and ISAF partners to succeed in our 
shared mission.
    Mrs. McMorris Rodgers. After President Obama announced the 
deployment of 30,000 additional troops, the surge of forces bring the 
total American commitment to nearly 100,000. I understand most of these 
troops will come from the Army and Marines. Will the Navy and Air Force 
play a role in augmenting these taskings? How many brigades, trainers, 
and support troops do we expect to deploy during this surge? What 
impact will this be on the Guard and Reserves?
    Admiral Mullen. The composition of the entire 30K is still being 
determined by COMISAF. As of the 14 Jan 2010, 27,442 U.S. Service 
Members have been ordered against the President's additional 
authorization of 30K. Of these, the Navy and the Air Force are making 
contributions to the increased augmentation of Afghanistan 
Headquarters. The Navy is filling 129 positions and the Air Force is 
filling 240 positions.
    The composition of the entire 30K is still being determined by 
COMISAF. As of the 14 Jan, 27,442 U.S. Service Members have been 
ordered against the President's additional authorization of 30K. 
Specific capabilities ordered include:
    <bullet>  One Marine Corps Regimental Combat Team (Full Spectrum 
COIN)
    <bullet>  Two Army Brigade Combat Teams (Full Spectrum COIN)
    <bullet>  One Army Brigade Combat Team
    <bullet>  One Combat Aviation Brigade
    <bullet>  One Division Headquarter
    <bullet>  1,250 Joint Individual Augmentation Plus-up
    Of the 27,442 ordered as of 14 Jan 2010, the National Guard is 
filling 3,489 positions and the Reserves are filling 1,390 positions.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CONAWAY
    Mr. Conaway. It has been reported that the minimum number of troops 
General McChrystal had requested was 40,000. General McChrystal has 
said he will focus on the population centers. Can you tell us the 
population centers that will be left unprotected as a result of the 
reduced number of 30,000? And in addition, can you tell us the 
cumulative number of people (Afghan) that will be impacted by sending 
30,000 instead of 40,000?
    Admiral Mullen. The President's decision deploys the combat 
brigades needed to achieve population security in all of General 
McChrystal's priority centers. The President's decision appropriately 
strikes balance between too many and too few forces, and provides what 
General McChrystal needs to achieve success. It provides the balance 
needed to avoid being perceived as occupiers. It also provides the 
trainers needed to support the Afghan National Security Force (ANSF) 
growth plan and partnering. Importantly, it sets the conditions that 
will enable us to transition Afghanistan responsibly into the hands of 
an Afghan government capable of providing long-term security.
    The force levels considered during the strategic review represented 
a range of options with associated levels of risk. The force 
commitments announced by the President, augmented by the expected 
contributions from NATO allies, fall squarely within the range of 
capability and risk that General McChrystal recommended. The additional 
30,000 U.S. troops combined with the expected additional NATO 
commitments gives General McChrystal everything he needs to reverse the 
Taliban's momentum, and accelerate the growth and development of the 
ANSF.
    General McChrystal has been given the flexibility to employ forces 
in the specific locations and sequence as he sees fit to best achieve 
his operational and tactical objectives. We are confident that the 
resources the President has committed to Afghanistan will enable the 
commander to achieve the campaign's objectives. General McChrystal's 
plan will protect all the key population centers necessary to reverse 
the insurgency's momentum and enable the ANSF to provide the long-term 
stability to prevent the return of al Qaeda.
    Mr. Conaway. The Afghan government cannot or does not currently pay 
for the ANSF. With the increase in ANSF that is part and parcel to the 
President's Plan, can you tell us who will fund these forces for the 
near term and as well as the long term?
    Secretary Gates. Currently the U.S. Government funds most of the 
expenses associated with the development of the Afghan National 
Security Force (ANSF). In accordance with the London Compact, the 
Afghans apply 34% of their GDP to security force development. In FY09, 
they contributed approximately $350 million. The United States 
continues to work with the Government of the Islamic Republic of 
Afghanistan (GIRoA) to increase its ability to generate revenue.
    Additionally, we are pressing international Allies and partners to 
contribute to the development of the ANSF and its long-term 
sustainment. Allies and partners have pledged approximately $300 
million to the NATO Afghan National Army (ANA) Trust Fund. Regarding 
the police, the international community provided just over $600 million 
to the Law and Order Trust Fund since 2002. The international community 
also donated equipment to the ANSF.
    Over time, we will continue to press the international community to 
fund more of the ANSF and to assist the GIRoA in increasing its ability 
to generate its own revenue. Still, the United States is likely to be 
the major funder of the ANSF for the foreseeable future.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WITTMAN
    Mr. Wittman. Secretary Gates and Admiral Mullen, thank you for the 
investment of your time on the second day of testimony on Capitol Hill. 
I'm pleased that the President has come to a decision on the future 
strategy of our forces in Afghanistan and I fully support the 
deployment of additional troops and resources to aid in the fight 
against extremists that continue to threaten our country and way of 
life. I do however remain concerned with the mention of any sort of 
hard and fast timetable. I hope that the tension generated by the 
articulation of a timetable generates the intended results. Secretary 
Gates, I understand that you're not necessarily in favor of the 
timeline and I can appreciate that. Admiral Mullen, I have full trust 
and confidence in our military leadership and our troops. I know that 
you will successfully complete this mission and I hope that my 
colleagues here and in the administration will continue to fully 
resource your efforts. Admiral Mullen, I'd like your help on a somewhat 
separate issue. I'd like to get a clear understanding for what our 
Combatant Commanders (COCOMs) are asking for in terms of ships--
aircraft carriers and amphibious ships specifically. Without discussing 
the assumption of risk, will you provide my staff with the raw COCOM 
numbers requested for aircraft carriers and amphibious ships over the 
last few years?
    Admiral Mullen. As of 21 Jan 10 the following requests for Navy 
Aircraft Carriers and Amphibious Ships have been registered in the last 
three years (FY 09, 10, 11)
    1. USAFRICOM:
      <bullet>  Three Amphibious Ships (1-FY09, 1-FY10, 1-FY11).
      <bullet>  1.92 Amphibious Ready Groups (ARG) (0-FY09, 92-FY10, 1-
FY11).
    2. USCENTCOM:
      <bullet>  Three Amphibious Ships (1-FY09, 1-FY10, 1-FY11).
      <bullet>  Three ARGs (1-FY09, 1-FY10, 1-FY11).
      <bullet>  3.55 Carrier Strike Groups (CSG) (1.2 -FY09, 1.2 FY10, 
1.15-FY11).
    3. USEUCOM:
      <bullet>  2.08 Amphibious Ships (.08-FY09, 1-FY10, 1-FY11).
      <bullet>  Three ARGs (1-FY09, 1-FY10, 1-FY11).
      <bullet>  Two CSGs (.5-FY09, .5-FY10, 1 FY11).
    4. USJFCOM (Global Response Force (GRF), all contingency sourced 
upon SecDef order).
      <bullet>  Two ARGs in FY11.
      <bullet>  Twelve CSGs (4-FY09, 4-FY10, 4-FY11).
    5. USNORTHCOM:
      <bullet>  Four Amphibious Ships in FY10, all contingency sourced 
if required.
    6. USPACOM:
      <bullet>  4.2 ARGs (1.4-FY09, 1.4-FY10, 1.4-FY11).
      <bullet>  4.5 CSGs (1.5-FY09, 1.5-FY10, 1.5-FY11).
    7. USSOUTHCOM:
      <bullet>  2.13 Amphibious Ships (.5-FY09, .83-FY10, .83-FY11).
          <all>  Includes 2 ARGs supporting Operation UNIFIED RESPONSE.
      <bullet>  .22 CSG in FY10.
          <all>  Includes 1 CVN supporting Operation UNIFIED RESPONSE.
    Mr. Wittman. I'm not sure what type of force package fits squarely 
beneath the 30,000 number. Can you help me understand what we may see 
in terms of Brigades, Regimental Combat Teams (RCTs), and the required 
enablers?
    Secretary Gates and Admiral Mullen. The composition of the entire 
30K is still being determined by General McChrystal, Commander, 
International Security Assistance Force (COMISAF). As of 14 January 
2010, 27,442 U.S. Service Members have been ordered against the 
President's additional authorization of 30K. Specific capabilities 
ordered include:
    <bullet>  One Marine Corps Regimental Combat Team (Full Spectrum 
COIN)
    <bullet>  Two Army Brigade Combat Teams (Full Spectrum COIN)
    <bullet>  One Army Brigade Combat Team
    <bullet>  One Combat Aviation Brigade
    <bullet>  One Division Headquarter
    <bullet>  1,250 Joint Individual Augmentation Plus-up
    Mr. Wittman. I'm concerned that in an effort to maximize combat 
troops we may overly complicate the command and control, and supported/
supporting unit relationships to where we actually reduce a unit's 
effectiveness. As we know, Marines fight as a Marine Air Ground Task 
Force (MAGTF) and come as a task organized warfighting package 
including sustainment capability. Should the Marines in Regional 
Command South (RC-South) expect to have to rely on perhaps an army 
sustainment brigade even though they fight most effectively as a MAGTF?
    Secretary Gates and Admiral Mullen. General McChrystal and 
Lieutenant General Rodriguez are currently looking at the structure and 
command relationships throughout Afghanistan. The aim is to ensure 
unity of effort and unity of command that best support the combat 
forces on the ground. With the addition of 30,000 U.S. troops, it is 
crucial that these forces are employed to maximize their effectiveness. 
Specifically on RC-South, I am confident that General McChrystal and 
Lieutenant General Rodriguez will take a comprehensive look at the best 
way to employ forces in that area and ensure that each element in their 
inherent structure and maximizes each unit's effectiveness.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COFFMAN
    Mr. Coffman. I have read General McChrystal's Initial Assessment of 
August 30, 2009, both the redacted and the un-redacted versions. In 
neither version does he make a specific troop request. Open source 
documents (i.e. published newspaper stories) have stated that the 
request is 40,000. However, I have since learned that the 40,000 number 
was a midrange option and that there was also a low- and high-range 
option with commensurate probabilities of success associated with them. 
General McChrystal acknowledged to me that the three options exist but 
would not relay to me what the upper range was for obvious political 
reasons. The President has now selected a number that appears to be 
beneath the midrange option. How does that translate in terms of 
probability of success?
    Secretary Gates and Admiral Mullen. The initial resource request 
remains a classified document, so we are unable to go into complete 
detail. However, we can tell you that the President's decision to 
deploy an additional 30,000 forces provides the most U.S. forces as 
quickly as possible, giving General McChrystal the combat power he 
needs in 2010 to gain the initiative and succeed according to our 
Afghanistan strategy as outlined on 1 December 2009. In addition, our 
Allies and partners have committed to more than 7,000 additional forces 
through the NATO/International Assistance Force (ISAF) Force Generation 
Process.
    Mr. Coffman. According to open source media reports, U.S. and 
Afghan officials have begun helping several anti-Taliban militias that 
have independently taken up arms against insurgents in several parts of 
Afghanistan, prompting hopes of a larger scale tribal rebellion against 
the Taliban. When I was in Afghanistan last week I asked General 
McChrystal's staff about expanding this aid beyond supplies and 
training and utilizing these tribal militias as we had done in Iraq. 
The response was that the Karzai government was not in favor of the 
U.S. arming tribal militias. (The Maliki government in Iraq was equally 
opposed when the U.S. began arming former Sunni Arab insurgents through 
the Sunni Awakening program.) I believe Afghanistan has a warrior 
culture and many of the tribes have been fighting for the last 2,500 
years. In 2001, the Northern Alliance defeated the Taliban on the 
ground with tribal militias and without the assistance of U.S. ground 
troops--only air, advisory, and logistical support. Shouldn't we be 
more focused on supporting Afghanistan militias in the manner that they 
are familiar with versus a conventional military organization that is 
alien to them?
    Secretary Gates and Admiral Mullen. It is important to note that 
the United States is not backing tribal militias. There currently are 
several initiatives to promote community security and development. The 
major program is the Afghan Public Protection Program (AP3), which is 
currently a pilot program in Wardak province. The program works with 
the village shura (i.e., meeting) to nominate personnel to provide 
security for the community. These personnel are representative of all 
ethnic groups and tribes in the community, and they receive three weeks 
of training as well as equipment. They are formally part of the 
Ministry of Interior Forces. Currently the pilot program has produced 
over 500 members of the Afghan Public Protection Force, and we have 
heard largely positive comments about their ability to improve security 
in the communities that they work in.
    Additionally, the United States is working with the Government of 
Afghanistan on several Local Defense Initiatives. Through these 
programs, the United States is providing some development support and 
training to communities that have been willing to step up and provide 
additional community security, similar to a community watch program.
    The United States' focus in terms of securing the population of 
Afghanistan is on developing the Afghanistan National Security Forces 
and growing them so that they can eventually take over the security of 
Afghanistan.
    Our counterinsurgency strategy provides our forces in Afghanistan 
the best possible approach and resources to set the security 
conditions: for the Afghan people, to see our commitment to their 
future; for the Karzai government, to be supported as it seeks to 
implement promised reforms; for the Afghan Taliban, to understand they 
will not and cannot take back Afghanistan; and finally, for those 
beyond Afghanistan who support the Taliban or would like to see the 
return of al Qaeda, to realize the futility of their pursuit.
    Mr. Coffman. A fixed schedule to begin the withdrawal of our forces 
from Afghanistan seems ridiculous. There should be a flexible time 
schedule based on the conditions on the ground. Was there such fixed 
withdrawal schedule given prior to the surge in 2007 in Iraq? Or wasn't 
it only after the surge in Iraq was successful that a schedule for a 
drawdown of our forces was negotiated between Coalition Forces and the 
Iraqi government?
    Secretary Gates and Admiral Mullen. The circumstances in Iraq and 
Afghanistan are different. While the addition of more than 20,000 U.S. 
troops to Iraq announced in January 2007 did not include a withdrawal 
schedule, President Bush said, ``America's commitment is not open-
ended.'' The security situation produced by the surge's success enabled 
the U.S. and Iraq to jointly sign the U.S. Security Agreement, which 
required that all U.S. forces withdraw from Iraq no later than December 
31, 2011.
    For Afghanistan, the President has made it clear that July 2011 is 
when we will begin to transition to an Afghan lead. This date was not 
chosen arbitrarily, but is based on careful analysis of when we will be 
able to responsibly begin transitioning. However, it is imperative to 
understand that July 2011 is the beginning of a process. It is not when 
we rush for the exits; rather, the pace and character of that drawdown 
will be determined by conditions on the ground. There is no 
determination of how long this will take and there is no withdrawal 
date set for after July 2011. It is important to balance signaling 
resolve in the fight against al Qaeda and showing our enduring 
commitment to stability in the region with ensuring the Afghans take 
primary responsibility for defending their own country with a sense of 
purpose and urgency.
    Mr. Coffman. Was the strategy of consolidating our forces around 
the population centers and the central river valley in Helmand Province 
envisioned before or after the development of General McChrystal's 
Initial Assessment of August 30, 2009? Does this strategy require fewer 
troops than he thought in that Assessment?
    Secretary Gates and Admiral Mullen. As the Taliban resurgence 
gained momentum since 2003, most notably in the south, it became 
increasingly clear that the Coalition's efforts must be focused on 
addressing the insurgency where it lives and grows. Although the 
Taliban has been expanding its influence throughout the country, 
Kandahar is the Taliban's birthplace and Helmand Province lies at the 
intersection of the insurgency and the thriving narcotics trade. 
Therefore, the insurgency's roots are most deeply planted in the south. 
General McChrystal's initial assessment during his first months of 
command allowed him to closely examine the environment. His assessment 
confirmed that a population-centric approach that protects the key 
population centers and reverses the insurgency's momentum where the 
insurgency is most threatening would provide our best chance of 
success.
    The force levels considered during the strategic review represented 
a range of options with associated levels of risk. Importantly, the 
internal deliberations considered many other aspects of the strategy, 
which involve much more than the application of additional resources.
    The President's decision appropriately strikes balance between too 
many and too few forces and provides what General McChrystal needs to 
achieve success. It provides the balance needed to avoid being 
perceived as occupiers, and it deploys the combat brigades needed to 
achieve population security in all of General McChrystal's priority 
centers. It also provides the trainers needed to support the Afghan 
National Security Force growth plan and partnering. Importantly, it 
sets the conditions that will enable us to transition Afghanistan 
responsibly into the hands of an Afghan government capable of providing 
long-term security.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOEBSACK
    Mr. Loebsack. What I believe our Service Members, military 
families, Iowans, and all Americans need to hear is a clear-cut 
description of the civil-military strategy that will be implemented to 
achieve that goal. Secretary Gates and Admiral Mullen, can you please 
provide me, in 50 words or less, a concise description of that 
strategy? As clearly and concisely as possible, how you will accurately 
measure the success of this strategy?
    Secretary Gates and Admiral Mullen. The overarching goal of the 
President's strategy is to disrupt, dismantle, and defeat al Qaeda in 
Afghanistan and Pakistan, and to prevent its capacity to threaten 
America and our allies in the future. This will be achieved by a civil-
military effort to reverse the Taliban's momentum and increase the 
capacity of Afghanistan's government and security forces; a civilian 
surge that will work with the Afghan government to help consolidate 
security gains through governance and development; and a long-term, 
strategic partnership with Pakistan.
    Success will be measured by progress towards a stable security 
situation in Afghanistan and Pakistan--one that is sustainable over the 
long term by their governments. We will present a report to Congress in 
March outlining our metrics.
    Mr. Loebsack. I have long been concerned about the impact that 
multiple combat deployments are having on our military readiness, our 
Service Members, and on our military families. Will the deployment 
ordered by the President--and the pace of that deployment--affect our 
readiness to respond to emergencies at home and other contingencies 
abroad? Will it affect dwell time ratios and the overall health of the 
force? What will be the long-term impact of this deployment on our 
military and our military readiness?
    Secretary Gates and Admiral Mullen. As we have reported in our 
quarterly readiness reports to Congress, our deploying forces' 
readiness for ongoing counterinsurgency mission is high; however, we 
lack the dwell time required to train ground forces for the complete 
range of military operations we may be asked to respond to. But as the 
recent deployments to Haiti have shown, we can still respond rapidly 
and professionally when our nation calls. The additional deployments 
ordered by the President, when viewed in light of force adjustments 
made in other ongoing contingencies, are not expected to significantly 
alter our readiness posture or health of the force. We must continue to 
balance the force for an uncertain future while remaining focused not 
only on dwell time but on restoring and repairing equipment to levels 
that support training and response capability for a full range of 
missions. We partially mitigate our ground forces' risk through 
investments in capacity and capability, as well as by the significant 
capability inherent to our air and maritime forces. Nonetheless, our 
limited ability to generate additional ground forces constitutes a 
concern that we continue to focus attention and resources on.
    Mr. Loebsack. How does U.S. Central Command plan to meet the 
tremendous logistical, supply, and infrastructure requirements 
necessary to deploy 30,000 additional troops to Afghanistan at such a 
rapid pace? How will the Afghanistan ramp-up be balanced with the 
complexity of simultaneously drawing down our troops, equipment, and 
infrastructure in Iraq?
    Secretary Gates and Admiral Mullen. We have a large number of 
professionals who are balancing the demands of both operations. Their 
greatest challenge is overcoming the differences that exist between 
Iraq and Afghanistan. Iraq's infrastructure is more accommodating and 
CENTCOM is leveraging the infrastructure and the drawdown from Iraq to 
help equip forces in Afghanistan. Additionally, CENTCOM is moving as 
much cargo as possible via surface modes and recently conducted an 
assessment of Afghan airfields in order to maximize throughput. I 
remain confident that our professionals will continue to adapt and 
execute the mission we have assigned them.
    Mr. Loebsack. What are the civilian goals of this strategy? Does 
the President's plan include an increase in the number of civilian 
experts on the ground in Afghanistan beyond the number that was 
committed this past spring? How will the civilian goals be integrated 
and coordinated with the military goals?
    Secretary Gates and Admiral Mullen. The President's strategy is an 
integrated civil-military strategy. Both military and civilian efforts 
will support the President's core goal to disrupt, dismantle, and 
defeat al Qaeda in Afghanistan and Pakistan, and to prevent its 
capacity to threaten the United States and our allies in the future. As 
Secretary Clinton described during her testimony, civilian efforts will 
include building the capacity of Afghan institutions to withstand and 
diminish the threat posed by extremism, and delivering high-impact 
economic assistance--especially in the agricultural sector--to create 
jobs, reduce the funding that the Taliban receives from poppy 
cultivation, and draw insurgents off of the battlefield. As Secretary 
Clinton also mentioned, the Department of State will be seeking 
additional resources, including additional civilian personnel in 
Afghanistan, in order to implement the President's strategy. The State 
Department, in coordination with our military commanders, is currently 
examining the requirements for additional personnel to complement our 
military force increase. I believe that an increase in civilian 
expertise is an essential element of this strategy's success.
    In order to coordinate these civilian activities with our military 
efforts, Ambassador Eikenberry and General McChrystal published an 
``Integrated Civilian-Military Campaign Plan for Support to 
Afghanistan'' in August 2009 that provides guidance from the U.S. Chief 
of Mission and the Commander of U.S. Forces-Afghanistan to U.S. 
personnel in Afghanistan.
    U.S. Government senior civilians have been established and 
integrated at each level of the military chain of command to serve as 
counterparts to military commanders and coordinate civilian efforts. 
This newly established U.S. Government integrated civil-military 
decision-making chain in-theater allows for planning and coordination 
of activities at all levels from the district/company level to the 
national/embassy level. Although new, this structure has already 
exhibited vast improvements in the coordination of civilian and 
military activities.
    Mr. Loebsack. How does the President's strategy assure that 
military actions in Afghanistan will not further inflame or entrench al 
Qaeda and other extremist groups in Pakistan? The President's speech 
indicated that part of his strategy includes further engagement with 
Pakistan. Has a new assistance package or strategic plan been discussed 
with the Pakistan Government?
    Secretary Gates and Admiral Mullen. The President's strategy aims 
to address challenges we face on both sides of the border. Afghanistan 
and Pakistan, bound by ties of tribe and faith, share a porous border 
of more than 1,500 miles. The presence of extremist sanctuaries in 
Pakistan led to the resurgence of the Taliban and more coordinated, 
sophisticated attacks in Afghanistan. Permitting a sanctuary for 
extremists in Afghanistan would put even more pressure on Pakistan's 
government, which is already under attack from groups operating in its 
border region.
    The President believes that a strong, stable, democratic Pakistan 
must be a key partner with the United States and an ally in the fight 
against violent extremism. People in Pakistan are increasingly coming 
to view that they share a common enemy with the United States. Our 
relationship is anchored in our common goals of civilian rule; robust 
economic development; and the defeat of those who threaten Pakistan, 
Afghanistan, and the peace of the world. We will significantly expand 
support intended to help develop the potential of Pakistan and its 
people. Last year, the United States committed $7.8 billion to support 
economic and social development, and our defense relationship has never 
been stronger. Our assistance will demonstrate the U.S. commitment to 
addressing problems that affect the everyday lives of Pakistanis and 
will bolster Pakistan against the threat of extremism.
    Mr. Loebsack. Do the additional NATO troop commitments that have 
been reported in the press since the President's speech come in 
addition to already scheduled NATO troop increases? In other words, are 
these truly new additions from our NATO allies?
    Secretary Gates and Admiral Mullen. Of the approximately 7,000 
forces pledged by Allies and partners at the International Security 
Assistance Force (ISAF) Force Generation Conference on 7 December 2009, 
35 percent of the offered forces were already in Afghanistan in a 
temporary capacity for election security. These forces were extended by 
the troop-contributing nations so they do in fact represent a new 
enduring commitment of forces, and thus all 7,000 forces should be 
considered new commitments. We are also hopeful that certain Allies and 
partners will use the London Conference on Afghanistan on 28 January 
2010, and the meeting of NATO Defense Ministers in Instanbul on 4 
February to announce increases in both financial support and additional 
forces.
    Mr. Loebsack. What are the civilian goals of this strategy? Does 
the President's plan include an increase in the number of civilian 
experts on the ground in Afghanistan beyond the number that was 
committed this past spring? How will the civilian goals be integrated 
and coordinated with the military goals?
    Secretary Lew. The civilian goals of our strategy are intended to 
advance the larger strategic goals of disrupting, dismantling, and 
defeating al-Qaeda by helping the Afghans develop effective governance 
and promoting sustainable economic development. Our goals are:
    <bullet>  Promoting good governance and connecting the Afghan 
people with their government by helping make Afghan government 
institutions more visible, effective, responsive and accountable at the 
local level. This includes capacity building programs at the national, 
provincial and district levels in the health and education sectors, and 
supporting programs that give Afghans a greater stake in their own 
government. A key emphasis will be assisting Afghan efforts to reduce 
corruption;
    <bullet>  Promoting the rule of law and justice delivery, 
consistent with the Afghan constitution, by strengthening the formal 
justice system across Afghanistan, and creating space for traditional 
dispute resolutions mechanisms;
    <bullet>  Assisting with reconstruction and development aimed at 
job creation, creating links to cross-border trade, and enhancing the 
Afghan Government's ability to secure its borders and increase customs 
revenue;
    <bullet>  Sapping the insurgency of foot soldiers and income from 
the narcotics trade by implementing a new civilian-military 
agricultural redevelopment strategy;
    <bullet>  Supporting Afghan government efforts to reintegrate 
Taliban and other insurgents who renounce al-Qaeda, cease violence and 
accept the constitutional system;
    <bullet>  Redoubling international efforts to target illicit 
financial flows to the Taliban;
    <bullet>  Countering al-Qaeda and Taliban propaganda, while also 
empowering Afghans to challenge the insurgents' narrative by improving 
access to mobile phones, radio and television;
    <bullet>  Improving the coordination of international assistance 
through regular consultations with Allies and partners to strengthen 
the United Nations Assistance Mission in Afghanistan, and to enhance 
civilian coordination among ISAF partners;
    <bullet>  Regional diplomacy aimed at shifting the calculus of 
Afghanistan's neighbors from competition in Afghanistan to cooperation 
and economic integration; and
    <bullet>  Advancing the rights of Afghan women and girls across all 
lines of effort, with particular focus on expanding economic 
opportunities, improving access to justice, improving basic service 
delivery in education and health, and increasing women's participation 
in the political process.
    Accompanying an increase in civilian assistance will be a 
significant increase in civilian subject matter experts--beyond the 
tripling of deployed U.S. civilians that occurred over the past year, 
from 320 civilians on the ground in Afghanistan in January 2009, to 
nearly 1,000 on the ground today. We plan to increase that staff of 
1,000 by another 20 to 30 percent by the end of 2010. These civilians 
will partner with Afghans to enhance the capacity of government 
institutions and help rehabilitate Afghanistan's key economic sectors.
    The integration and coordination of civilian and military goals 
occurs at all levels in Afghanistan. At the Provincial and District 
level, we have civilian employees who work for USAID, USDA and the 
State Department on their agencies' respective governance and 
development projects. Based in Provincial Reconstruction Teams (PRTs) 
and District Stabilization Teams (DSTs), each team has a `lead 
civilian' representative, who serves as the commander's civilian 
counterpart. The lead civilians coordinate closely with the military 
commanders of the PRTs and DSTs to ensure that civilian and military 
projects reinforce one another.
    The net effect of this is that we have developed synchronized 
civilian-military chains of command, to ensure coordination at each 
level: district, provincial, regional, and national. At the national-
level we have also created a dozen civ-mil working groups to improve 
coordination on key issues and to support work in the field. So far, 
our experience has been that this has promoted coordination on 
development and other issues. But as our military and civilian demands 
keep increasing over the coming months, we will need to further adapt 
our mechanisms to ensure our work is linked together across civ-mil and 
U.S.-Afghan lines, both at the Afghan national and sub-national levels.
    Mr. Loebsack. How does the President's strategy assure that 
military actions in Afghanistan will not further inflame or entrench 
al-Qaeda and other extremist groups in Pakistan? The President's speech 
indicated that part of his strategy includes further engagement with 
Pakistan. Has a new assistance package or strategic plan been discussed 
with the Pakistan Government?
    Secretary Lew. Our efforts in Afghanistan are inextricably linked 
to the situation in Pakistan. We remain committed to working with both 
the Afghans and Pakistanis to defeat violent extremism. As we disrupt 
and dismantle al Qaeda, we believe it will make other extremist groups 
less likely to carry out attacks within Pakistan. We have a robust 
security assistance program that promotes our strategic interests in 
Pakistan, fosters stability in civil-military relations, enhances U.S.-
Pakistani military interoperability, and improves capacity in areas 
critical to COIN and counter-terrorism operations.
    Ambassador Robin Raphel, the Coordinator of Economic Assistance at 
Embassy Islamabad, has held discussions regarding our civilian 
assistance strategy with the Government of Pakistan at the national, 
provincial and district level. At all levels, the Government of 
Pakistan has expressed support for the strategy, which aims to:
    <bullet>  Improve the capacity of the Government of Pakistan to 
address the country's most critical infrastructure needs, with an 
initial focus on energy and agriculture, to help Pakistan recover from 
its energy and water crises.
    <bullet>  Help the Government of Pakistan address basic needs and 
provide improved economic opportunities in areas most vulnerable to 
extremism.
    <bullet>  Strengthen Pakistan's capacity to pursue economic and 
political reforms that reinforce stability.
    As is consistent with best practices in international development, 
U.S. assistance will be directed increasingly through a broad range of 
Government of Pakistan institutions, as well as local non-governmental 
organizations (including the private sector) with the capacity to 
implement programs effectively and accountably. This approach will help 
increase host country ownership, and U.S. commitment to building a 
long-term partnership with the Government of Pakistan and the Pakistani 
people.
    Mr. Loebsack. Do the additional NATO troop commitments that have 
been reported in the press since the President's speech come in 
addition to already scheduled NATO troop increases? In other words, are 
these truly new additions from our NATO allies?
    Secretary Lew. While some of the approximately 7,000 additional 
forces pledged by Allies and partners at the ISAF Force Generation 
Conference on 7 December include the long term extension of troops that 
were already in Afghanistan in a temporary capacity, more than 65 
percent of the offers were new additions. We are also hopeful that 
announcements of additional troop contributions will follow the 28 
January London Conference on Afghanistan and the 4 February NATO 
informal Defense Ministerial.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. GIFFORDS
    Ms. Giffords. Thank you all for your time and your service and for 
your deliberate attention to this process. We have a tremendous 
responsibility anytime we commit the young men and women of our country 
to war, to ensure they are properly equipped during the fight and taken 
care of when they return home, and those are the two areas I want to 
address today. As the only Democrat that serves on both the Foreign 
Affairs Committee and Armed Services Committee, I approach this new 
strategy from a unique perspective. First I want to talk a little bit 
about resourcing these new requirements and then about how we are 
planning to care for the Service Members and civilian support staff 
once they return home. Every day in my District in Arizona, I see the 
physical and mental stresses we put on our forces and their gear, 
specifically the low density-high demand specialties unique to this 
type of conflict. As we require more of these assets in-theater, what 
is the plan to fully resource them from both a manpower and equipment 
perspective? Specifically I am talking about ground intelligence, ISR 
(Intelligence, Surveillance, and Reconnaissance), Combat Search and 
Rescue, UAVs and Electronic Warfare assets that are all stretched 
extremely thin across Afghanistan and at training locations here at 
home.
    Secretary Gates and Admiral Mullen. Taking care of our people is of 
the utmost importance to us. As you stated, we have placed our force 
under tremendous pressure in order to assure success. I assure you that 
the health of the force figures prominently in our calculus to develop 
a successful strategy in Afghanistan. You accurately touched on several 
essential warfighting areas and systems that are indeed in high demand 
and short supply. The Fiscal Year 2010 Overseas Contingency Operations 
Supplemental Appropriations request we are developing will fully 
resource the President's Afghan Strategy to include these low density-
high demand assets. Secretary Gates and I look forward to presenting 
this request to the Congress in the very near future.
    Ms. Giffords. How do we plan to fund the specific equipment needs 
we will have in these low density-high demand specialties?
    Secretary Gates and Admiral Mullen. Maintaining military equipment 
in good working order, whether it is for low density-high demand 
condition, or for other requirement, requires the Department to 
delicately balance a range of needs within the context of available 
resources. Depending on anticipated mission demand and tempo, specific 
equipment requirements are adjusted annually to compensate for 
operational changes which contributed to washouts, stress, or 
operational losses. These factors influence what particular items are 
to be procured in any given fiscal year. To do this, Military 
Departments maintain lists of equipment, along with inventory 
objectives, designed to fulfill the National military strategy. Those 
objectives are then reviewed in the context of whether the optimal 
solution would be to procure new equipment or refurbish what we already 
have. It is recognized that it is a delicate calculation to decide 
which critical item is put in the budget. I can assure you that when 
calculating our procurement funding requests, the Department takes into 
account, demand requirements, and how equipment inventories impact the 
total force.
    Ms. Giffords. What incentives will be sought to ensure we can 
retain the skilled troops in these areas where retention has been 
problematic in the last few years due to recurring deployments?
    Secretary Gates and Admiral Mullen. The low density/high demand 
skills that are constantly needed for operations are monitored at the 
Department through a formal balanced scorecard forum chaired by the 
Under Secretary of Defense for Personnel and Readiness.
    Through this process, the Department monitors critical skills 
personnel and recommends incentives to improve recruiting and 
retention. Some of these critical skills include explosive ordnance 
disposal, linguists, intelligence and counterintelligence analysts, 
para-rescue operators and contracting specialists.
    The Department finds that the statutory authorities to encourage 
highly skilled and technical officers and enlisted personnel to remain 
in the Service are crucial to maintaining capabilities in these skills. 
The Selective Reenlistment Bonus (SRB) and the Critical Skills 
Retention Bonus (CSRB) authorized by 37 U.S.C. 308 and 37 U.S.C. 355 
respectively, are among the most effective incentive tools to attract 
and retain qualified personnel in critical military specialties. The 
Department uses these authorities with appropriate oversight and rigor.
    Despite the overall strength of enlisted retention over the last 
few years, there remain critical shortages in these skills and other 
``hard-to-retain'' skills that justify the continuation and application 
of the statutory bonus authorities. Current bonus authorities, along 
with the special and incentive pay consolidation authority granted in 
the FY 2008 NDAA to be phased in over the next few years, give the 
Department ample monetary incentive flexibility and agility to retain 
skilled Service Members in critical areas.
    Ms. Giffords. On my second line of questioning, I am extremely 
concerned with our ability to care for our Service Members and civilian 
staff when they return home. How is the Department of Defense budgeting 
for the future care needs of returning Service Members?
    Secretary Gates. Beginning with the development of our Fiscal Year 
(FY) 2010 budget request, I placed great emphasis on identifying and 
providing for future care needs of our returning Service Members. The 
Department has a well-established Wounded, Ill, and Injured Senior 
Oversight Committee, which is engaged with all emerging requirements. 
The Under Secretary of Defense for Personnel and Readiness, along with 
each of the Services, identified requirements in support of the future 
care needs of returning Service Members and we fully funded those 
requirements. The details of the FY 2011 Defense Budget will be 
submitted to Congress by the President.
    Ms. Giffords. On my second line of questioning, I am extremely 
concerned with our ability to care for our Service Members and civilian 
staff when they return home. How have efforts between the Department of 
Defense (DOD) and Department of Veterans Affairs (VA) progressed from 
the perspective of digital records transfer and continuity of care?
    Secretary Gates. DOD and VA share a significant amount of health 
information and continue to spearhead interagency data sharing 
activities that deliver information technology solutions to 
significantly improve the secure sharing of appropriate electronic 
health information. These initiatives enhance healthcare delivery to 
beneficiaries and improve the continuity of care for those who have 
served our country. Today, VA has access to DOD electronic health 
information on more than 5 million individuals. Exchange of outpatient 
pharmacy data, laboratory results and radiology reports began in 2001, 
with more health data increasingly made electronically available to VA. 
VA and DOD are working collaboratively to upgrade and enhance the 
technical framework that supports data sharing, and improve that 
framework's capability to handle increasing amounts of shared data.
    <bullet>  Since 2001, DOD has provided VA with one-way historic 
information through the Federal Health Information Exchange (FHIE) for 
separated Service Members. On a monthly basis DOD sends laboratory 
results; radiology reports; outpatient pharmacy data; allergy data; 
discharge summaries; consult reports; admission, discharge, transfer 
information; standard ambulatory data records; demographic data; pre- 
and post-deployment health assessments (PPDHAs); and post-deployment 
health reassessments (PDHRAs).
        -  As of November 2009, DOD transmitted health data on more 
        than 5 million retired or discharged Service Members. 
        Approximately 1.8 million of these patients have presented to 
        VA for care, treatment, or claims determination. The number of 
        individuals with data available to VA grows monthly as health 
        information on recently separated Service Members is extracted 
        and transferred to VA.
        -  DOD also transmits data for VA patients being treated in DOD 
        facilities under local sharing agreements. As of November 2009 
        more than 4.4 million health data messages have been 
        transmitted to VA for patients treated in DOD facilities.
    <bullet>  For shared patients being treated by both DOD and VA, the 
Departments maintain the jointly developed Bidirectional Health 
Information Exchange (BHIE) communications system for transferring data 
for use in another's application. Implemented in 2004, BHIE allows DOD 
and VA clinicians to access each other's health data in real-time. 
Available information includes: allergy; outpatient pharmacy; inpatient 
and outpatient laboratory and radiology reports; demographic data; 
diagnoses; vital signs; family history, social history, other history; 
problem lists; questionnaires; and Theater clinical data, including 
inpatient notes, outpatient encounters, and ancillary clinical data 
such as pharmacy data, allergies, laboratory results and radiology 
reports.
        -  As of November 2009, there are more than 3.5 million shared 
        patients (including and more than 150,000 Theater patients) 
        available through BHIE.
        -  To increase the availability of clinical information on a 
        shared patient population, VA and DOD have further leveraged 
        BHIE functionality, allowing bidirectional access to inpatient 
        discharge summaries from DOD's inpatient documentation system. 
        Access to DOD discharge summaries is operational at some of 
        DOD's largest inpatient facilities, representing approximately 
        61 percent of total DOD inpatient beds.
    <bullet>  Since 2006, VA and DOD have been sharing computable 
outpatient pharmacy and allergy data through the interface between 
DOD's Clinical Data Repository (CDR), and VA's Health Data Repository 
(HDR). Exchanging standardized pharmacy and allergy data on patients 
enhances patient care and safety through the ability to conduct 
automated drug-drug and drug-allergy interaction checks using data from 
both repositories. As of November 2009, computable outpatient pharmacy 
and medication allergy data on over 47,900 patients receiving 
healthcare from both DOD and VA has been exchanged.
    <bullet>  To support our most severely wounded and injured Service 
Members transferring to VA Polytrauma Rehabilitation Centers for care, 
DOD sends radiology images and scanned paper medical records 
electronically to the VA Polytrauma Centers.
    Initiatives underway to further support and enhance the 
Departments' ability to share electronic health records include the 
Virtual Lifetime Electronic Record (VLER) and the DOD/VA Multiple 
Network Gateways.
    <bullet>  VLER: Sharing of electronic health information with DOD 
and VA private sector partners is the primary focus of the VLER and the 
Nationwide Health Information Network (NHIN) initiatives. DOD, VA, and 
Kaiser Permanente (KP) began a proof-of-concept for the three-way 
exchange between the electronic health records systems of DOD, VA, and 
KP in the San Diego area in January 2010. The collaboration marks the 
first time a computerized patient-records system operated by a federal 
agency will be linked to one operated by a private organization.
    <bullet>  Network Gateways: In 2008, a DOD/VA team defined 
functional, infrastructure and policy interoperability requirements 
that yielded a DOD/VA Multiple Network Gateway concept of operation. 
The Departments developed and implemented an enterprise architecture 
infrastructure solution and established a series of strategically 
planned network gateways for secure, redundant connectivity between 
facilities and to facilitate seamless transfer of health data. DOD and 
VA have established four gateways to receive migrated network traffic 
for data exchange. The target for migrating all data existing is FY 
2010.
    Ms. Giffords. On my second line of questioning, I am extremely 
concerned with our ability to care for our Service Members and civilian 
staff when they return home. When we talk about the costs associated 
with surging additional troops forward, are you also including within 
that figure the anticipated costs of future care?
    Secretary Gates. Beginning with the development of our FY 2010 
budget request, I placed great emphasis on identifying and providing 
for future care needs of our returning Service Members. We have a well-
established Wounded, Ill, and Injured Senior Oversight Committee, which 
is well engaged with all emerging requirements. The Under Secretary of 
Defense for Personnel and Readiness, along with each of the Services, 
identified requirements in support of the future care needs of 
returning Service Members and we fully funded those requirements in our 
baseline budget request. During the FY 2011 Program Review process, we 
will continually assess our progress and resource implications.
    Within our Overseas Contingency Operations request, we have 
included funding for the health care requirements associated with the 
increased forces, both Active and Reserve, for planned operations. The 
baseline budget includes funding for anticipated costs of future care 
for all returning Service Members.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. It seems to me that we can do everything right in 
Afghanistan but the success of our efforts greatly depends on the 
commitment from Pakistan. How does the current Pakistani offensive in 
Waziristan fit into our strategic plan? What is the desired end state 
of this offensive for both Pakistan and the U.S.? How are we able to 
verify Pakistani claims of success? Finally, as we approach July 2011, 
how will you take into account Pakistan's progress and how will this 
progress influence the 2011 assessment?
    Secretary Gates and Admiral Mullen. Our success in Afghanistan is 
inextricably linked to our partnership with Pakistan. We share a common 
enemy and a common goal: disrupting, dismantling, and defeating al 
Qaeda and its extremist allies in Afghanistan and Pakistan. To 
accomplish this goal, we are working to strengthen Pakistan's capacity 
to target extremist groups that threaten other countries and have made 
it clear that we cannot tolerate a safe haven for terrorists whose 
location is known and whose intentions are clear. The Pakistan military 
has been involved in sustained, committed, deliberate military 
operations against extremists in South Waziristan and Swat, and across 
the Federally Administered Tribal Areas (FATA) for the last several 
months--its largest successive offensives in years. The goals of these 
operations are to eliminate insurgent-controlled safe havens, restore 
the writ of the State, and provide security to the Pakistani populace. 
Since 2001, Pakistan has lost thousands of its soldiers and civilians 
in this fight. We continue to interact constantly with the Pakistani 
military leadership to determine the efficacy of their efforts, and we 
agree that, although much remains to be done, their efforts in 2009 
have reduced safe havens and degraded militant capacity.
    Progress in both Afghanistan and Pakistan will be measured and 
assessed by the U.S. Government on a regular basis using a mix of 
quantitative and qualitative measures, intended to capture objective 
and subjective assessments. This assessment will look at past progress 
and start to focus on changes or adjustments that might be made over 
the following year. A description and assessment of U.S. Government 
efforts, including those of the Department of Defense, the Department 
of State, the USAID, and the Department of Justice, in achieving the 
objectives for Afghanistan and Pakistan is due to Congress in March 
2010.
    Ms. Tsongas. If we do not see the desired results by July 2011, or 
even by December 2010, is there a scenario in which you would ask for 
more troops beyond the 30,000? Do you have an existing plan for a troop 
increase above 30,000 and what events on the ground would trigger this 
request?
    Secretary Gates and Admiral Mullen. The President has authorized 
30,000 additional forces, in addition to granting us a modest amount of 
flexibility for an additional 10 percent. We will assess conditions as 
we move forward. Based on those assessments, the President will 
determine the scope and pace of a gradual and responsible drawdown of 
U.S. combat forces.
    Ms. Tsongas. What does the commitment of an additional 30,000 U.S. 
troops do to the support structure that is currently in place in 
Afghanistan? How many contractors will we need to send to Afghanistan 
to support the increase of 30,000 troops and the civilian surge? I 
believe that we will need more contractors and support personnel to 
provide life support for our troops. If this is true, is the 
President's estimated cost of 30 billion dollars to support this surge 
accurate?
    Secretary Gates and Admiral Mullen. Contractors are a critical 
enabler in Afghanistan and will continue to provide a wide range of 
tasks essential for operations including logistics, maintenance, 
construction, transportation, security and base life support. There are 
currently 104,000 contractor employees supporting our forces in 
Afghanistan. Based on current troop-to-contractor ratios, we anticipate 
an additional 50,000 contractor employees will be required to support 
the troop increase. The President's estimated cost included the 
associated increase in contractor support, to include compensation, 
deployment and sustainment. More than 75 percent of the additional 
contractor employees will be Afghan citizens. Employing Afghan citizens 
in support of the surge provides a boost to the local economy, reduces 
labor costs, and will contribute to a stable, sovereign Afghanistan 
supporting the theater commander's counterinsurgency strategy. Hiring 
local individuals further mitigates the cost of increasing the number 
of contractors. As local hires, Afghani contractor employees do not 
incur the life support and sustainment costs of U.S. or third-country 
nationals. Lastly, contractors are a subset of the operational and 
maintenance costs necessary to support the force, which are included in 
the President's estimate.
    Ms. Tsongas. The $30 billion does not include costs of replenishing 
equipment and addressing long-term health and mental health care costs. 
Do you have or are you in the process of developing the long-term 
personnel and readiness costs of sending an additional 30,000 troops to 
Afghanistan? If so, please provide them to the Committee.
    Secretary Gates. Beginning with the Fiscal Year 2010 budget 
request, we included funding for all requirements identified 
Department-wide to provide for long-term health and mental health care 
costs. We continue to refine requirements and are working to improve 
all health care processes related to long-term health and mental health 
care needs of our Service Members. This is one of my top priorities, 
and the Department will continue to include the necessary resources to 
provide the best possible health care for all of our Service Members, 
who deserve nothing less.
                                 ______
                                 
                     QUESTIONS SUBMITTED BY MR. NYE
    Mr. Nye. America's key goal of disrupting and defeating al Qaeda in 
South Asia is largely dependent on the action of the Pakistani forces. 
What plans do you have to incentivize the Pakistani government to 
continue its counter-insurgent operations in the areas bordering 
Afghanistan and to expand their operations to excise al Qaeda forces 
from Pakistan? What are failback options if the initial plan does not 
succeed?
    Secretary Gates and Admiral Mullen. As the President stated in his 
address on 1 December 2009, our core goal is to disrupt, dismantle, and 
eventually defeat al Qaeda in Afghanistan and Pakistan and prevent 
their return to both countries. In recent months, the Pakistani 
military has made significant efforts to address the extremist threat 
within its borders against extremists in South Waziristan and Swat, and 
across the Federally Administered Tribal Areas (FATA)--its largest 
successive offensives in years. The goals of these operations are to 
eliminate insurgent-controlled safe havens, restore the writ of the 
State, and provide security to the Pakistani populace. Since 2001, 
Pakistan has lost thousands of its soldiers and civilians in this 
fight.
    We must continue to encourage and aid Pakistan's fight against the 
extremists; we must also continue to make efforts to show that we view 
our long-term relationship with Pakistan as vital to our national 
security. To accomplish our objectives, we are strengthening Pakistan's 
capacity to target extremist groups, and have made it clear that we 
cannot tolerate a safe haven for terrorists whose location is known and 
whose intentions are clear. We must also help Pakistan widen its 
aperture in seeking out and eliminating all forms of extremism and 
terrorism--those who threaten not only Pakistan, but also Afghanistan, 
the wider South Asia region, and the world. Pakistan's greatest 
incentive to accomplish this goal is its own security interests. We are 
deepening ties with the people of Pakistan as well as with their 
security forces. We see progress with our Pakistani partners as 
paramount to the way ahead. The United States is also providing 
substantial resources to support Pakistan's democracy and development 
to demonstrate that we are a reliable, long-term strategic partner. We 
believe, based on the significant incremental progress we have seen in 
2009 with our Pakistani counterparts, that the President's revised 
strategy will succeed.
    Mr. Nye. On the White House's website, in regards to the 
President's new plan for Afghanistan and Pakistan, it states: ``The 
United States will focus on working with Pakistani democratic 
institutions. We have reaffirmed this commitment by providing $1.5 
billion per year for five years to support Pakistan. This assistance 
addresses: Helping Pakistan address immediate water, energy, and 
economic crises; Supporting broader economic reforms; Helping Pakistan 
eliminate extremist sanctuaries.'' As you mentioned in your testimony, 
Pakistan is a nuclear-armed nation of 175 million people. A stable 
Pakistan is critical in its own right and for success in Afghanistan. 
However, there have been many examples of clear corruption and misuse 
of support funds in the Pakistani government. What mechanisms are in 
place to properly oversee the military funds Pakistan will receive as 
we escalate our support to the country?
    Secretary Gates and Admiral Mullen. We are committed to a long-term 
strategic partnership with Pakistan that is built on a foundation of 
mutual interest, mutual respect, and mutual trust. For FY 2009 and FY 
2010, DOD will execute the Pakistan Counterinsurgency Fund (PCF), 
appropriated to the Department of State and transferred for execution 
to DOD. This funding provides assistance to Pakistan's security forces 
to support train and equip programs and other enablers that enhance 
Pakistan's ability to conduct counterinsurgency operations that 
complement the U.S. Government's efforts in Afghanistan. Given the 
priorities of the Afghanistan-Pakistan strategy, the United States will 
ensure the delivery and integration of warfighting capabilities rapidly 
and efficiently, with appropriate attention and adherence to 
accountability and end-use monitoring (EUM) requirements. Proper 
financial management, fiscal controls, and accountability in accordance 
with statute and DOD policies, including the DOD Financial Management 
Regulation (FMR) and any additional guidance that the Under Secretary 
of Defense (Comptroller) may provide, are being followed. Additionally, 
quarterly execution reports will be submitted to the appropriate 
Congressional Committees.
    Mr. Nye. Pakistan all too often allocates vital defense resources 
on protection from India, instead of focusing on the Pakistani Taliban 
and al Qaeda terrorists operating in their country. How will you ensure 
U.S. dollars are not used to resource any kind of military defense 
operations against India but instead are utilized to fight Pakistani 
Taliban and al Qaeda factions? Do you intend to have U.S. military or 
civilian personnel on the ground in Pakistan to provide oversight?
    Secretary Gates and Admiral Mullen. Although the Department of 
State is the lead agency for overall security assistance, the Office of 
the Defense Representative to Pakistan (ODR-P) in Islamabad oversees 
and monitors all military assistance provided to the Pakistani armed 
forces. The purpose of direct DOD assistance programs is to build 
Pakistan's counterinsurgency capabilities and to provide Pakistan with 
equipment that enables operations along its western border. ODR-P's 
security assistance team provides the oversight to ensure that DOD 
funding is used for the counterinsurgency and counterterrorism purposes 
intended.
    Furthermore, we believe that Pakistan's ongoing operations on its 
western border and recent shifts in Pakistani public opinion show the 
degree to which the Pakistani people, their government, and the 
military take the extremist threat seriously. I believe that supporting 
the Pakistanis in their struggle against the extremist threat within 
their borders is in the long-term best interests of the United States. 
We will continue our oversight toward that end.
    Mr. Nye. With the increase in troop deployments, our military 
personnel and their families will face an added strain. What steps is 
the Department of Defense (DOD) taking to prepare to meet the medical 
care, mental health, and transition needs of the additional personnel 
who will be deployed?
    Secretary Gates and Admiral Mullen. A broad range of programs are 
in place to sustain the health and well-being of Active and Reserve 
Component Service Members and their families before, during, and after 
deployment.
    The Office of the Deputy Under Secretary of Defense for Military 
Community and Family Policy offers several state-of-the-art programs 
for Service Members and their families. The Military and Family Life 
Consultant (MFLC) and Military OneSource (MOS) programs offer 
confidential, non-medical, short-term counseling support to members of 
the Active and Reserve Components and their families to prevent the 
development or exacerbation of conditions that may detract from 
military and family readiness. These services are available throughout 
the deployment cycle.
    MFLC services are flexible to meet emerging needs. MFLCs deploy to 
installations for up to 90 days to provide non-medical counseling 
support. In many locations installation MFLCs are embedded with units 
to offer counseling support specific to that unit. Large groups of 
MFLCs may also be mobilized and deployed to provide ``surge'' 
counseling support to Brigades returning from combat. Child and Youth 
Behavioral (CYB) MFLCs are assigned to child development centers, youth 
centers, DOD Education Activity, and military connected schools to 
support staff, teachers, parents, and youth confronting deployment-
related issues and transitions. CYB-MFLCs also deploy to numerous 
summer program activities to support youth who have a parent deployed. 
Finally, the Joint Family Support Assistance Program (JFSAP) augments 
existing family programs to provide a continuum of support and services 
based on Service Member and family strengths and needs and available 
resources. The primary focus of support is families who are 
geographically dispersed from a military installation. JFSAP 
specifically supports National Guard and Reserve members and their 
families. Services are delivered in local communities through 
collaborative partnerships with Federal, State, and local resources.
    Once deployed, Combat and Operational Stress (COSC) teams support 
Service Members and commanders in theater. These teams are available 
24/7 while Service Members are deployed. COSC promotes Service Member 
and unit readiness by enhancing adaptive stress reactions, preventing 
maladaptive stress reactions, assisting Service Members with 
controlling COSRs, and assisting Soldiers with behavioral disorders.
    Additionally, the Services have each developed garrison and 
training programs to mitigate the effects of combat-related stress. The 
Army recently launched the Comprehensive Soldier Fitness Program, the 
Air Force uses the Landing Gear Program, the Navy has an Operational 
Stress Control program, and the Marine Corps uses a program called 
Operational Stress Control and Readiness. Each of these programs seeks 
to prepare Service Members to cope better with combat and deployment 
stress.
    To enhance access to mental health care, the Department has 
actively recruited new, qualified mental health providers, both to 
military treatment facilities and the TRICARE network. The Public 
Health Service is also providing mental health providers to work with 
the Department.
    Each Service also has a comprehensive program to address the 
reintegration needs of the wounded, ill, and injured, including the 
Army Wounded Warrior Program, the Marine Wounded Warrior Regiment, 
Navy's Safe Harbor Program, and the Air Force Wounded Warrior Program. 
The DOD Yellow Ribbon Reintegration Program was established to address 
the needs of the Reserve Component members and their families, and 
facilitates access to support and reintegration services throughout the 
deployment cycle.
    Mr. Nye. Much debate has been given to the number of, and timeline 
for, military personnel who will be sent to Afghanistan. What role will 
civilian agencies play and will they too be ``surged''? Civilian-
military coordination is crucial to the fight in Afghanistan and 
Pakistan. How will the President's surge affect this relationship? Will 
there be enough civilian personnel to support our warfighters on the 
ground?
    Secretary Gates and Admiral Mullen. The Department of Defense 
strongly supports civilian increases in Afghanistan as a critical 
element of our strategy and as an essential element to improve civil-
military integration. In 2009, we saw significant improvements, 
including a substantial increase in civilian experts in-country (nearly 
triple from the previous year), and the establishment of a U.S. 
Government senior civilian structure, whereby a U.S. Government 
civilian counterpart is established at each level of the military chain 
of command to coordinate civilian efforts. We are aware that military 
force increases will likely require the deployment of additional 
civilian experts. Secretary Clinton and Deputy Secretary Lew testified 
that they expect additional civilian increases of 20 to 30 percent in 
2010-2011. The Department of State and Embassy Kabul are working with 
our military commanders to identify additional civilian requirements. 
We refer you to the Department of State for further details.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. HEINRICH
    Mr. Heinrich. Thank you and the Administration's full national 
security team for conducting a serious and comprehensive review of the 
War in Afghanistan. In order to allow our troops to come home, I 
believe we need to aggressively pursue the training of effective Afghan 
Security Forces so that we can ultimately transfer this important 
responsibility; an immediate, increased U.S. and allied presence can 
make this possible. I am concerned, however, about a number of elements 
that complicate this strategy. Please expand on the following: The 
Afghan government has not been a reliable partner and I believe 
correcting this will be critical to our success. Please expand on what 
specifically we will be doing to combat corruption and ensure greater 
accountability from the Afghan government? How will we enforce such an 
approach? British Prime Minister Gordon Brown recently said the Afghan 
government ``will be expected to implement . . . far-reaching reforms 
to ensure that, from now on, all 400 provinces and districts have a 
governor appointed on merit, free from corruption, with clearly defined 
roles, skills, and resources.''
    Admiral Mullen. The United States has been working closely with the 
Government of the Islamic Republic of Afghanistan (GIRoA) on the issue 
of corruption, and we are encouraged by recent steps taken by President 
Karzai to ensure greater accountability. At the January 28 London 
Conference on Afghanistan, President Karzai announced to the 
international community that fighting corruption will be the key focus 
of his second term in office and that he will strengthen the High 
Office of Anti-Corruption through additional resources and new powers. 
I fully support these efforts to combat corruption and end a culture of 
impunity.
    The U.S. is also taking steps to fight corruption. Currently, the 
State Department is working on a process to certify Afghan ministries 
to receive direct funding from the U.S. Government based on their 
financial and human resources management capabilities and transparency. 
The Departments of Defense and State are also reviewing our contracting 
processes to find ways to improve the responsiveness of our resources 
directly to the needs of the Afghan people, reducing avenues for 
potential corruption. This includes smaller contracts, more local 
procurement, and more contracting officers in the field to oversee 
contracts and partner with Afghans.
    Mr. Heinrich. Please expand on the following: Can you please 
elaborate on the enhanced ``strategic partnership'' with Pakistan--what 
does this mean specifically, and what will the United States be 
committing to ensure we have a critical ally to help eliminate 
terrorist cells inside Pakistan as well as within the mountainous 
Afghan-Pakistan border area?
    Admiral Mullen. The President's strategy recognizes that the 
security situation in Afghanistan is inextricably linked to stability 
in Pakistan. Action on both sides of the country's shared border is 
necessary to ultimately disrupt, dismantle, and defeat al-Qaeda and its 
extremist allies and prevent its return to both countries. As such, the 
President's commitment to a long-term, strategic partnership with 
Pakistan is a critical component to his overall strategy. As General 
McChrystal stated in his recent testimony before the House Foreign 
Affairs Committee, ``Our strategic partnership with Pakistan and the 
Government of Pakistan, I believe, is the critical long-term way to 
help reduce al-Qaeda.''
    By demonstrating our commitment to the region, recognizing our 
shared enemy, and providing significant resources for democracy and 
development, as well as counterterrorism and counterinsurgency, the 
President's strategy enhances our ability to work with the Government 
of Pakistan and build Pakistani capacity to address the insurgent 
threat within its borders. The Government of Pakistan has already taken 
promising steps in this regard with the military operations that it has 
conducted over the past year against insurgent forces in South 
Waziristan, Swat, and the Federally Administered Tribal Areas. We must 
encourage and aid Pakistan's fight against extremists in these areas. 
Additionally, we must also help Pakistan begin to expand its objectives 
to include seeking out and eliminating all forms of extremism and 
terrorism--those who threaten not only Pakistan, but also Afghanistan, 
the wider South Asia region, and the globe.
    However, this partnership with Pakistan will go well beyond 
military cooperation. It will be a whole-of-government approach 
focusing on the long-term security and prosperity of the country. For 
additional information on these efforts, I suggest that you contact our 
counterparts at the Department of State.
    Mr. Heinrich. Please expand on the following: In terms of 
developmental and civilian assistance, what has changed from the 
President's strategy announced in March 2009, and how will we encourage 
alternative agricultural products other than opium poppy?
    Secretary Gates. This question is best addressed by the Department 
of State, which has responsibility and authority for coordinating our 
civilian efforts in Afghanistan. Since March 2009, the President has 
further underscored the need to focus civilian assistance on those 
ministries, governors, and local leaders that combat corruption and 
deliver assistance to the Afghan people. The Department of State will 
certify ministries for assistance and align our assistance more closely 
with priorities outlined by the Afghan government. In addition, U.S. 
Government civilian assistance will be implemented through small and 
more flexible contracts, supported by more civilian expertise in the 
field to supervise and advise on our efforts. As for development 
priorities, immediate impact on the lives of the Afghan people is the 
critical consideration. Therefore, our top reconstruction priority is 
implementing a civilian-military agriculture redevelopment strategy to 
restore Afghanistan's once vibrant agriculture sector. This effort will 
also target key Afghan populations for assistance with alternatives to 
growing poppy, as opposed to a previous focus on eradication efforts. 
Although many of these changes were launched in March 2009, they have 
been further focused and refined following the President's decision in 
December 2009.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BRIGHT
    Mr. Bright. Providing the lift capabilities our soldiers require is 
of the utmost importance to me and I look forward to working closely 
with both of you on that issue moving forward. However, I'm also 
concerned about existing programs that have been used to procure 
Russian-made Mi-17 airframes for the Iraqi and Afghan militaries. Let 
me be clear: I personally believe that any American taxpayer dollars 
used to procure equipment for these militaries should be spent on 
American-made equipment. You may disagree with that point. But, at the 
very least, we should ensure that there is a full, open, and 
competitive process for procuring airframes in Afghanistan. Can you 
tell me if we are still purchasing Russian Mi-17s on a sole-source 
basis and whether you have plans to let American companies compete for 
these contracts?
    Secretary Gates. The Department of Defense supports building 
partner-nation capacity in Afghanistan, Pakistan and Iraq to meet 
strategic goals including host country participation in coalition 
stability operations and improvement of regional security.
    There are no known plans for Iraq to procure additional Mi-17s. As 
the Iraqi Security Forces (ISF) and their sustaining institutions have 
grown more comfortable with U.S. equipment and the Foreign Military 
Sales (FMS) program, the Government of Iraq has expressed increasing 
interest in U.S. helicopters and, in fact, has already purchased 24 
Bell helicopters.
    The Commander of U.S. Central Command decided to continue to 
support the Mi-17 for the Afghan National Army Air Corps due to the 
Afghans' experience with the platform dating back to the 1980s, the 
operational suitability and reasonable cost, and the ease of 
maintenance. The Department is assessing the potential need to expand 
the fleet in Afghanistan in the short term, with an eye toward 
identifying alternative platforms in the longer term.
    Subsequent to the date of this hearing, the Under Secretary of 
Defense for Acquisition, Technology, and Logistics designated the non-
standard rotary wing aircraft as a special-interest acquisition and 
designated the Army to set up a dedicated project management office. 
The Department is committed to ensuring effective program management 
and oversight.
    In this effort, an Office of the Secretary of Defense and Joint 
Staff-led study team has been formed to assess the Department's 
enduring requirements for rotary wing aircraft such as the Mi-17, as 
well as to develop a strategy for building partner-nation capacity that 
is less reliant on foreign sources of supply.
    Mr. Bright. Finally, I mentioned my concern about a sole-source 
procurement for helicopters in Afghanistan but I think we may end up 
considering a far more costly sole-source procurement here at home. The 
draft RFP for the KC-X tanker, as it is currently written, demonstrates 
a clear preference for a smaller, less capable tanker than the one the 
Department requested in previous rounds. We all know that this will 
ultimately favor one bidder over the other. We also learned on Tuesday 
that one of the bidders may decide that unless changes are made to the 
RFP, this company may not be able to make an offer.
    Secretary Gates--This is a serious development and something many 
of us would like to discuss with you further. By forcing one bidder out 
of the competition, we risk jeopardizing a process that's supposed to 
ensure best value for our military and the taxpayer. No matter which 
tanker a Member favors, I can assure you that Congress has no appetite 
for a sole-source bid to the tune of $35 billion dollars. Secretary, 
what steps are you taking to ensure that we get a fair and impartial 
final RFP?
    Secretary Gates. The Request for Proposal (RFP) requirements will 
clearly state the Warfighter's needs for a tanker that is ready to go 
to war on day one and will be a more capable tanker than our current 
tanker fleet. We believe the source selection strategy is crafted to 
favor no one except the Warfighter and taxpayer. The Department is 
committed to ensuring the competition is fair, open and transparent. We 
believe that both of the principal competitors are highly qualified, 
and we would like to see competition continue in this process. However, 
we cannot compel industry to participate.

                                  <all>

</pre></body></html>
